App. 1
818 Fed.Appx. 129
See Fed. Rule of Appellate Procedure 32.1 generally
governing citation of judicial decisions issued on or
after Jan. 1, 2007. See also U.S.Ct. of Appeals 3rd
Cir. App. I, IOP 5.1, 5.3, and 5.7.
United States Court of Appeals, Third Circuit.
IN RE: NATIONAL MEDICAL IMAGING, LLC;
National Medical Imaging Holding Company, LLC,
Debtors
National Medical Imaging, LLC; National Medical
Imaging Holding Company, LLC, Appellants in
19-3057, 19-3058 and 19-3059
v.
U.S. Bank, N.A.; Lyon Financial Services, Inc., d/b/a
U.S. Bank Portfolio Services; DVI Receivables XIV,
LLC; DVI Receivables XVI, LLC; DVI Receivables
XVII LLC; DVI Receivables XVIII, LLC; DVI
Receivables, XIX LLC; DVI Funding, LLC;
Ashland Funding, LLC; Jane Fox
Ashland Funding, LLC, Appellant in 19-3254
U.S. Bank, N.A.; Lyon Financial Services, Inc.;
DVI Receivables XIV, LLC; DVI Receivables XVI,
LLC; DVI Receivables XVII, LLC; DVI Receivables
XVIII, LLC; DVI Receivables XIX, LLC;
DVI Funding, LLC; Jane Fox, Appellants in 19-3255
Nos. 19-3057, 19-3058, 19-3059, 19-3254, and 19-3255
Originally Submitted Under Third Circuit LAR
34.1(a) June 11, 2020 (Resubmitted August 25, 2020)

App. 2
Attorneys and Law Firms
Steven M. Coren, Esq., Francis X. Lane, Esq., Melissa
C. Mazur, Esq., Kaufman Coren & Ress, Philadelphia,
PA, Aris J. Karalis, Esq., Karalis, Philadelphia, PA, for
Plaintiffs – Appellants In re: National Medical Imaging LLC, National Medical Imaging Holding Co. LLC
Steven J. Adams, Esq., Stacey A. Scrivani, Esq., Stevens & Lee, Reading, PA, Philip D. Anker, Esq., WilmerHale, New York, NY, Peter H. Levitt, Esq., Shutts
& Bowen, Miami, FL, Jack C. McElroy, Esq., Shutts &
Bowen, Orlando, FL, Danielle M. Spinelli, Esq., WilmerHale, Washington, DC, for Defendants – Appellees
US Bank NA, Lyon Financial Services Inc., DVI Receivables XIV LLC, DVI Receivables XVI LLC, DVI Receivables XVII LLC, DVI Receivables XVIII LLC, DVI
Receivables XIX LLC, Jane Fox, DVI Funding LLC
Before: JORDAN, MATEY, and ROTH, Circuit Judges.
OPINION*
JORDAN, Circuit Judge.
After more than a decade of litigation, Appellants
National Medical Imaging, LLC and National Medical
Imaging Holding Co., LLC (collectively, “NMI”) seek review of the District Court’s grant of summary judgment in favor of Appellees U.S. Bank, N.A., Ashland
Funding LLC (“Ashland”), Lyon Financial Services,
* This disposition is not an opinion of the full court and, pursuant to I.O.P. 5.7, does not constitute binding precedent.

App. 3
Inc. (“Lyon”) (now part of U.S. Bank), DVI Receivables
XIV, LLC, DVI Receivables XVI, LLC, DVI Receivables
XVII, LLC, DVI Receivables XVIII, LLC, DVI Receivables XIX, LLC (collectively, “DVI entities”), and Jane
Fox, the Director of Operations for Lyon (collectively,
“the creditors”). The District Court held that the creditors were not liable for damages under 11 U.S.C.
§ 303(i)(2) for bringing an involuntary bankruptcy action in bad faith. We agree with the District Court that,
even if the creditors acted in bad faith, NMI cannot
prove the involuntary bankruptcy caused NMI’s failure. We thus do not reach the creditors’ cross-appeal
and will afﬁrm the District Court’s grant of summary
judgment to the creditors. Our affirmance renders
moot an earlier-filed motion for an injunction, so we
will also deny that motion.
I.

Background
A. Factual Background

As we have remarked before in a related case, “[i]t
is an understatement to say that the factual background and procedural history lurking behind this
case are complex.” Rosenberg v. DVI Receivables XVII,
LLC, 835 F.3d 414, 416 (3d Cir. 2016). Nevertheless, a
brief summary of the facts relevant to this appeal may
sufﬁce.
NMI operated centers that provided medical imaging services, such as MRI, CT, and PET scanning.
The company ran into ﬁnancial difﬁculties that Maury
Rosenberg, the managing owner of NMI, attributed to

App. 4
the Deﬁcit Reduction Act of 2005.1 From 2005 through
2007, NMI experienced a decline in the volume of scans
by 16%. During the year 2007 alone, there was a decline of 19%. NMI was also already involved in litigation with U.S. Bank, during which Jane Fox, a named
defendant in this case and, at the time, the Director of
Operations for U.S. Bank, encouraged an aggressive legal strategy that included “out ﬁl[ing]” NMI – meaning,
it seems, to one-up NMI in the ﬁling of legal documents. (App. 560.)
By October 2008, NMI had closed all its centers
outside of Pennsylvania. In an email to employees, an
NMI representative said that “the Deﬁcit Reduction
Act severely affected the diagnostic imaging business”
and that they should “work together to increase our
Pennsylvania viability.” (App. at 576.) By that point,
NMI was also experiencing strained relations with its
primary lender, Sterling Bank. According to that bank,
NMI had “maxed out [its] credit line[,]” and there was
“not a chance” it would further extend credit to NMI.
(App. at 1437.)
On November 3, 2008, an employee of a U.S. Bank
afﬁliate who worked with NMI forwarded Rosenberg
an email about a potential purchaser for NMI. In response, Rosenberg said he didn’t “believe that there
[was] anything to talk about” because, “as previously
discussed, we are in the process of closing all of the
1

The Deﬁcit Reduction Act of 2005, Pub. L. 109-171, 120
Stat. 4 (2006), affected the amounts that Medicare would pay for
imaging services. See 42 U.S.C. § 1395w-4.

App. 5
centers a-n [sic] this process should be completed no
later than 12/15/08[.]” (App. at 1682.) Shortly after receiving that email, the company’s creditors, led by U.S.
Bank, ﬁled involuntary bankruptcy petitions on November 7, 2008 against NMI and Rosenberg in the
United States District Court for the Eastern District of
Pennsylvania.
B. Procedural History
After the involuntary bankruptcy petitions were
ﬁled, the action against Rosenberg was moved to the
United States District Court for the Southern District
of Florida, where he resides. That bankruptcy petition
was dismissed in August 2009. The petition against
NMI was also subsequently dismissed, based on collateral estoppel principles and the decisions in the Rosenberg bankruptcy.
Both NMI and Rosenberg brought separate adversary actions against the creditors, relying on 11 U.S.C.
§ 303(i)(2). The Rosenberg claim went to a jury trial,
and the jury found bad faith on the part of the creditors
in bringing the involuntary bankruptcy and awarded a
total of $6.12 million in damages. Meanwhile, NMI
pursued an adversary action against the creditors in
the Eastern District of Pennsylvania. That case underlies the present appeal. In early motions practice, NMI
claimed it was entitled to a trial by jury for its claim
under 11 U.S.C. § 303(i)(2), but the creditors countered
that NMI had signed a settlement agreement waiving
that right. The District Court agreed that NMI was

App. 6
entitled to a jury trial with respect to those creditors
that were not parties to the settlement agreement or
the successors or agents of any such party. The effect
of that ruling was overtaken, however, by the parties’
motions for summary judgment.
NMI sought partial summary judgment, arguing
that preclusive effect should be given to the jury’s
finding in the Southern District of Florida that the
creditors acted in bad faith in filing an involuntary
bankruptcy against Rosenberg. The District Court denied that motion. The creditors ﬁled for full summary
judgment, saying NMI could not prove bad faith, as required under § 303(i)(2), and that, even if it could, their
bad faith actions did not cause NMI to go out of business.
The District Court held that “[t]here are limited
indicia of bad faith, which preclude any determination
on that issue as a matter of law. . . . Yet, the evidence
relating to bad faith does not rise to a level that would
merit punitive damages, especially considering NMI’s
severe ﬁnancial distress.” Nat’l Med. Imaging, LLC v.
U.S. Bank, N.A., No. 16-5044, 2019 WL 4076768, at *4
(E.D. Pa. Aug. 28, 2019) (“SJ Opinion”). It also held
that NMI was not entitled to compensatory damages
because “the record establishes that NMI’s ﬁnancial
difﬁculties were caused by factors independent of the
involuntary bankruptcy petitions, and thus there is no
genuine dispute of material fact on the issue of proximate cause.” Id.

App. 7
NMI timely appealed the grant of summary judgment in favor of the creditors and the denial of its own
motion for partial summary judgment.2 After brieﬁng
was almost concluded, NMI sought an injunction from
this court to stop an auction scheduled to occur on June
15, 2020, in which U.S. Bank could have endeavored to
purchase NMI’s chose in action – this appeal – and
thereafter terminate the appeal, thus ﬁnally closing
the case.
Discussion3

II.

NMI argues that, for three reasons, the District
Court erred in granting summary judgment. First, it
2

NMI also appealed the ruling that it had waived its right
to a jury trial with certain defendants based on an earlier settlement agreement with U.S. Bank. Ashland and the DVI entities
cross-appealed, arguing that, if we decide that the District Court
erred in granting summary judgment in their favor, we should
also ﬁnd that the District Court erred in determining that NMI
was entitled to a jury trial. The jury issue is irrelevant, however,
given our disposition of this appeal, so we do not address it.
3
The bankruptcy court had jurisdiction under 28 U.S.C.
§ 157, and the District Court had jurisdiction over the adversary
proceeding under 28 U.S.C. § 1334. We have jurisdiction under 28
U.S.C. § 1291. We review a district court’s grant or denial of summary judgment de novo, applying the same standard that the district court applied. Jutrowski v. Twp. of Riverdale, 904 F.3d 280,
288 (3d Cir. 2018). Under that standard, a party is entitled to
summary judgment if it can establish that “there is no genuine
dispute as to any material fact[,]” and it “is entitled to judgment
as a matter of law[.]” Id. (quoting Fed. R. Civ. P. 56). “[S]ummary
judgment will not lie if the dispute about a material fact is ‘genuine,’ that is, if the evidence is such that a reasonable jury could
return a verdict for the nonmoving party.” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248, 106 S.Ct. 2505, 91 L.Ed.2d 202 (1986).

App. 8
says that determining whether the creditors acted
with bad faith sufﬁcient to justify punitive damages is
a fact-intensive inquiry for a jury to decide and not appropriate for summary judgment, especially when the
Court did not grant summary judgment on the issue of
bad faith.4 Second, NMI relatedly argues that the District Court erred in denying its motion for partial summary judgment on the issue of bad faith based on
collateral estoppel principles. Finally, NMI asserts that
there are disputes of material fact as to whether the
involuntary bankruptcy caused NMI to cease operations, so summary judgment was inappropriate. We are
unpersuaded and instead agree with the District Court
that, even if the creditors acted with some degree of
bad faith, they are entitled to summary judgment because their behavior was not such as to warrant punitive damages and NMI cannot prove the involuntary
bankruptcy proximately caused it any harm.
A. Punitive Damages
The District Court granted the creditors’ motion
for summary judgment on the punitive damages issue
because it determined that NMI’s proof of bad faith,
even if accepted as true, was not sufﬁcient to show that
4

As noted above, NMI sought partial summary judgment on
the issue of bad faith, asking the District Court to apply collateral
estoppel principles to the jury’s ﬁnding in the Southern District
of Florida. The District Court denied that motion, and NMI appeals it here. We do not address that portion of the appeal, however, because we are accepting, for the sake of argument, that the
creditors acted with some degree of bad faith.

App. 9
the creditors did anything bad enough to warrant an
award of punitive damages. On appeal, NMI argues
that, before the Court addressed punitive damages, a
jury should have addressed the question of bad faith,
which is a fact-intensive inquiry.
Under 11 U.S.C. § 303(i)(2)(B), a court “may” grant
punitive damages.5 “The key word in section 303(i) is
‘may’; that is, the court has considerable discretion in
deciding to award . . . damages under 303(i)(2). . . . An
award of punitive damages is discretionary even when
the involuntary filing is found to have been in bad
faith.” 2 Collier on Bankruptcy ¶ 303.33 (16th ed.
2020). Bad faith is determined by examining the totality of the circumstances. In re Forever Green Athletic
Fields, Inc., 804 F.3d 328, 336 (3d Cir. 2015). Courts
may consider a variety of factors in determining bad
faith,
including, but not limited to, whether: the
creditors satisﬁed the statutory criteria for ﬁling the petition; the involuntary petition was
meritorious; the creditors made a reasonable
inquiry into the relevant facts and pertinent
law before ﬁling; there was evidence of preferential payments to certain creditors or of dissipation of the debtor’s assets; the ﬁling was
5

Despite the language of the statute directing that “the court
may grant . . . punitive damages[,]” NMI argues that, because the
District Court withdrew the reference and determined that NMI’s
§ 303(i)(2) claim would be heard by a jury, the Court had intended
that the jury, not the Court, would decide whether to grant punitive damages. We will assume, for the sake of argument, that that
may have been the District Court’s initial intent.

App. 10
motivated by ill will or a desire to harass; the
petitioning creditors used the ﬁling to obtain
a disproportionate advantage for themselves
rather than to protect against other creditors
doing the same; the ﬁling was used as a tactical advantage in pending actions; the ﬁling
was used as a substitute for customary debtcollection procedures; and the ﬁling had suspicious timing.
Id. Although the only statutory prerequisite for punitive damages is that the involuntary petition was ﬁled
in bad faith, “Congress . . . chose to reserve to the court
the power to withhold an award in certain rare circumstances.” In re Reid, 854 F.2d 156, 160 (7th Cir. 1988).
So, while “the presence or absence of bad faith will inform the exercise of the district court’s discretion under § 303(i)[,]” it is not the only consideration. Id. The
purposes of punitive damages under § 303(i) are the
same as in other contexts: “punishment and deterrence.” In re Landmark Distribs., Inc., 189 B.R. 290,
317 (Bankr. D.N.J. 1995).
NMI’s central argument is that whether punitive
damages are justiﬁed is inextricably tied to the facts
that indicate bad faith. In NMI’s view, since the District Court did not decide the issue of bad faith, it could
not have rightly decided the issue of punitive damages.
NMI also claims that it need not prove harm to receive
punitive damages, eliminating the causation hurdle it
faces for compensatory damages. See In re S. Cal. Sunbelt Developers, Inc., 608 F.3d 456, 465 (9th Cir. 2010)
(“We . . . hold that punitive damages may be awarded

App. 11
under § 303(i)(2)(B) even absent an award of actual
damages under § 303(i)(2)(A).”).
According to NMI, the creditors had improper motives in ﬁling the involuntary bankruptcy, as demonstrated by Fox’s email about “outﬁl[ing]” NMI. That
email, written to two other U.S. Bank employees a
month before the involuntary bankruptcy was contemplated or ﬁled, questioned whether U.S. Bank’s attorney in a separate state proceeding against NMI was
sufﬁciently aggressive. Fox wrote,
You have told me in the past that what you
know about [Rosenberg] is that he does not
conduct business above the table and is know
[sic] to due [sic] business is [sic] rough areas.
[K]nowing this and knowing that he will pull
out all legal and questionable tactics, I really
need you to make sure that [our attorney] is a
street ﬁghter.
(App. 560.) She then wrote that she did not think their
attorney understood that he needed to “out ﬁle” Rosenberg “and not sit back and let things just go through
the court systems.” (App. at 560.) NMI also points out
that the creditors did not request an interim trustee
during the involuntary bankruptcy, despite their having represented that was a key purpose for initiating
the involuntary proceedings, and that some of the DVI
entities that were listed as creditors were no longer in
business when the petition was ﬁled. See In re Rosenberg, 414 B.R. 826, 837 (Bankr. S.D. Fla. 2009).

App. 12
Even if those facts are taken at face value and as
indicating bad faith, we cannot say that the District
Court erred in concluding, in effect and in light of the
totality of the circumstances and “the policy surrounding § 303(i)(2)”, that no reasonable jury would grant
punitive damages. SJ Opinion, 2019 WL 4076768, at
*11. Fox’s email is certainly suggestive of an aggressive
litigation strategy, but, on this record, it does not constitute evidence warranting an award of punitive
damages. Nor does the fact that the District Court
dismissed the involuntary bankruptcy as improperly
ﬁled mean that NMI is necessarily entitled to punitive
damages, even given what was characterized by the
District Court as the creditors’ “negligent and hasty
approach” to ﬁling the involuntary bankruptcy. Id. at
*10. That is especially true when considering the context of the petition’s ﬁling; Rosenberg had just told U.S.
Bank that he planned to cease operations and was in
the process of doing so. On the record here, the District
Court did not err in determining that there was no reasonable basis for awarding punitive damages.
B. Compensatory Damages
NMI also argues that the District Court overlooked disagreements on material facts pertaining to
causation. Section 303(i)(2)(A) of the Bankruptcy Code
requires that any damages for which defendants may
be liable be “proximately caused” by the ﬁling of the
involuntary bankruptcy. The statute does not deﬁne
proximate cause, so the common law deﬁnition applies.
Field v. Mans, 516 U.S. 59, 69-70, 116 S.Ct. 437, 133

App. 13
L.Ed.2d 351 (1995). Under general common law principles, proximate cause requires that the ﬁling be a
“ ‘substantial factor’ in bringing about the plaintiff ’s
harm.” Bouriez v. Carnegie Mellon Univ., 585 F.3d 765,
771 (3d. Cir. 2009).
Bankruptcy courts have held that when a business
was failing before the ﬁling of the involuntary bankruptcy, compensatory damages may not be justiﬁed.
See In re Cannon Express Corp., 280 B.R. 450, 460-61
(Bankr. W.D. Ark. 2002) (not awarding compensatory
damages because the debtor “was already experiencing an economic downturn in its business” before the
involuntary bankruptcy petition, so the court could
not determine what portion, if any, of the damage
was proximately caused by the petition); In re Atlas
Mach. & Iron Works, Inc., 190 B.R. 796, 804 (Bankr.
E.D. Va. 1995) (“Although compensatory damages
may include loss of business during and after the
pendency of the case, the undisputed evidence indicated that [the] business and work force had been on
the wane for the past ten years. . . . Consequently,
any additional loss of business following the filing of
the petition is purely speculative and therefore, is
not compensable.”) (collecting cases). Although reputational harm can be cognizable, “[a]sserting that the
stigma of bankruptcy damaged a debtor’s business
reputation and hurt goodwill is not, in and of itself,
sufficient evidence. There must be evidence supporting a damage claim.” 2 Collier on Bankruptcy
§ 303.33.

App. 14
Despite Rosenberg’s clear and contemporaneous
statements to the contrary, NMI claims that it was not
planning to close its centers before the involuntary
bankruptcy was ﬁled. It also says that the involuntary
bankruptcy ruined its reputation with physicians and
its primary lender. NMI ﬁrst points to deposition testimony from an NMI employee who said there had been
“hubbub talk” at referral centers about the involuntary
bankruptcy, so doctors were no longer referring patients to NMI for imaging services. (App. at 937.) But
that employee also admitted that none of the referring
physicians mentioned the involuntary bankruptcy.
NMI further points to the email it sent to employees in
October 2008, after closing centers in Maryland and Illinois. That email told employees that the company
had been forced to close the centers in Maryland and
Illinois because “the Deficit Reduction Act severely
affected the diagnostic imaging business,” and the
message encouraged employees to “work together to
increase our Pennsylvania viability.” (App. at 576.)
NMI says that the email is evidence of “a decision by
NMI to restructure” and that statements by Rosenberg
to the contrary were “taken out of context.” (Opening
Br. at 39.) Finally, NMI notes that the involuntary
bankruptcy constituted an event of default under the
terms of its loan from its primary lender, Sterling
Bank.
Even when taken in the light most favorable to
NMI, the evidence does not prove causation. No reasonable jury would credit unsubstantiated rumors as
evidence, rumors that were, in any event, likely to be

App. 15
ruled inadmissible hearsay. And that is all the NMI
employee could have provided. The email to employees
conﬁrms rather than refutes that NMI was experiencing severe ﬁnancial difﬁculties before the involuntary
bankruptcy. In light of Rosenberg’s unambiguous
statement that he planned to close all of the imaging
centers by December 15, 2008, the email cannot fairly
be read as a call to restructure the business.
Indeed, there can be little doubt that NMI was on
the brink of failure when the involuntary bankruptcy
petition was ﬁled. According to Rosenberg’s contemporaneous reports, NMI had experienced a dramatic decline in business. Rosenberg consistently blamed the
Deﬁcit Reduction Act for those declines. Although NMI
identiﬁes one loan on which it defaulted as a result of
the involuntary bankruptcy, it does not dispute the evidence showing that it had already “maxed out [its]
credit line” with its primary lender, and that the bank
said there was “not a chance” it would have further extended credit to NMI, even without the involuntary
bankruptcy. (App. at 1437.) Because the involuntary
bankruptcy petition was ﬁled when NMI was already
in irreversible decline – by all appearances on the precipice of complete collapse – the petition was not the
proximate cause of the business’s failure. A reasonable
jury could not ﬁnd otherwise.

App. 16
III. Conclusion
For the foregoing reasons, we will afﬁrm the District Court’s grant of summary judgment in favor of
the creditors. Because our afﬁrmance of that judgment
concludes this case, the motion for an injunction is
moot.

App. 17
814 Fed.Appx. 691
See Fed. Rule of Appellate Procedure 32.1 generally
governing citation of judicial decisions issued on or
after Jan. 1, 2007. See also U.S.Ct. of Appeals 3rd
Cir. App. I, IOP 5.1, 5.3, and 5.7.
United States Court of Appeals, Third Circuit.
IN RE: NATIONAL MEDICAL IMAGING, LLC;
National Medical Imaging Holding Company, LLC,
Debtors
National Medicial Imaging, LLC; National Medical
Imaging Holding Company, LLC, Appellants in
19-3057, 19-3058 and 19-3059
v.
U.S. BANK, N.A.; Lyon Financial Services, Inc.,
d/b/a U.S. Bank Portfolio Services; DVI Receivables
XIV, LLC; DVI Receivables XVI, LLC; DVI
Receivables XVII LLC; DVI Receivables XVIII, LLC;
DVI Receivables, XIX LLC; DVI Funding, LLC;
Ashland Funding, LLC; Jane Fox Ashland Funding,
LLC, Appellant in 19-3254
U.S. Bank, N.A.; Lyon Financial Services, Inc.;
DVI Receivables XIV, LLC; DVI Receivables XVI,
LLC; DVI Receivables XVII, LLC; DVI Receivables
XVIII, LLC; DVI Receivables XIX, LLC;
DVI Funding, LLC; Jane Fox, Appellants in 19-3255
Nos. 19-3057, 19-3058, 19-3059, 19-3254, and 19-3255
Submitted Under Third Circuit LAR 34.1(a)
June 11, 2020(Filed June 11, 2020)

App. 18
Attorneys and Law Firms
Steven M. Coren, Esq., Francis X. Lane, Esq., Melissa
C. Mazur, Esq., Kaufman Coren & Ress, Philadelphia,
PA, Aris J. Karalis, Esq., Karalis, Philadelphia, PA, for
Plaintiffs-Appellants (Case no. 19-3057, 19-3058, 193059)
Steven J. Adams, Esq., Stacey A. Scrivani, Esq., Stevens
& Lee, Reading, PA, Philip D. Anker, Esq., Danielle M.
Spinelli, Esq., WilmerHale, Washington, DC, Peter H.
Levitt, Esq., Shutts & Bowen, Miami, FL, Jack C.
McElroy, Esq., Shutts & Bowen, Orlando, FL, for Defendants-Appellees US Bank NA, Lyon Financial Services Inc, DVI Receivables XIV LLC, DVI Receivables
XVI LLC, DVI Receivables XVII LLC, DVI Receivables
XVIII LLC, DVI Receivables XIX LLC, Jane Fox, DVI
Funding LLC
Amy E. Vulpio, Esq., White & Williams, Philadelphia,
PA, for Defendant-Appellee Ashland Funding LLC
Steven J. Adams, Esq., Stacey A. Scrivani, Esq., Stevens
& Lee, Reading, PA, Philip D. Anker, Esq., WilmerHale,
New York, NY, Peter H. Levitt, Esq., Shutts & Bowen,
Miami, FL, Danielle M. Spinelli, Esq., WilmerHale,
Washington, DC, for Defendants-Appellees US Bank
NA, Lyon Financial Services Inc, DVI Receivables XIV
LLC, DVI Receivables XVI LLC, DVI Receivables XVII
LLC, DVI Receivables XVIII LLC, DVI Receivables
XIX LLC, DVI Funding LLC, Jane Fox (Case no. 193254, 19-3255)
Before: JORDAN, MATEY, and ROTH, Circuit Judges.
JORDAN, Circuit Judge.

App. 19
OPINION*
After more than a decade of litigation, Appellants
National Medical Imaging, LLC and National Medical
Imaging Holding Co., LLC (collectively, “NMI”) seek
review of the District Court’s grant of summary judgment in favor of Appellees U.S. Bank, N.A., Ashland
Funding LLC (“Ashland”), Lyon Financial Services,
Inc. (“Lyon”) (now part of U.S. Bank), DVI Receivables
XIV, LLC, DVI Receivables XVI, LLC, DVI Receivables
XVII, LLC, DVI Receivables XVIII, LLC, DVI Receivables XIX, LLC (collectively, “DVI entities”), and Jane
Fox, the Director of Operations for Lyon (collectively,
“the creditors”). The District Court held that the creditors were not liable for damages under 11 U.S.C.
§ 303(i)(2) for bringing an involuntary bankruptcy action in bad faith. We agree with the District Court that,
even if the creditors acted in bad faith, NMI cannot
prove the involuntary bankruptcy caused NMI’s failure. We thus do not reach the creditors’ cross-appeal
and will afﬁrm the District Court’s grant of summary
judgment to the creditors. Our afﬁrmance renders
moot the pending motion for an injunction, so we will
also deny that motion.
I.

Background
A. Factual Background

As we have remarked before in a related case,
“[i]t is an understatement to say that the factual
* This disposition is not an opinion of the full court and, pursuant to I.O.P. 5.7, does not constitute binding precedent.

App. 20
background and procedural history lurking behind
this case are complex.” Rosenberg v. DVI Receivables
XVII, LLC, 835 F.3d 414, 416 (3d Cir. 2016). Nevertheless, a brief summary of the facts relevant to this appeal may sufﬁce.
NMI operated centers that provided medical imaging services, such as MRI, CT, and PET scanning.
The company ran into ﬁnancial difﬁculties that Maury
Rosenberg, the managing owner of NMI, attributed to
the Deﬁcit Reduction Act of 2005.1 From 2005 through
2007, NMI experienced a decline in the volume of scans
by 16%. During the year 2007 alone, there was a decline of 19%. NMI was also already involved in litigation with U.S. Bank, during which Jane Fox, a named
defendant in this case and, at the time, the Director of
Operations for U.S. Bank, encouraged an aggressive
legal strategy that included “out ﬁl[ing]” NMI – meaning, it seems, to one-up NMI in the ﬁling of legal documents. (App. 560.)
By October 2008, NMI had closed all its centers
outside of Pennsylvania. In an email to employees, an
NMI representative said that “the Deﬁcit Reduction
Act severely affected the diagnostic imaging business”
and that they should “work together to increase our
Pennsylvania viability.” (App. at 576.) By that point,
NMI was also experiencing strained relations with its

1

The Deﬁcit Reduction Act of 2005, Pub. L. 109-171, 120
Stat. 4 (2006), affected the amounts that Medicare would pay for
imaging services. See 42 U.S.C. § 1395w-4.

App. 21
primary lender, Sterling Bank. According to that bank,
NMI had “maxed out [its] credit line[,]” and there was
“not a chance” it would further extend credit to NMI.
(App. at 1437.)
On November 3, 2008, an employee of a U.S. Bank
afﬁliate who worked with NMI forwarded Rosenberg
an email about a potential purchaser for NMI. In response, Rosenberg said he didn’t “believe that there
[was] anything to talk about” because, “as previously
discussed, we are in the process of closing all of the
centers a-n [sic] this process should be completed no
later than 12/15/08[.]” (App. at 1682.) Shortly after receiving that email, the company’s creditors, led by U.S.
Bank, ﬁled involuntary bankruptcy petitions on November 7, 2008 against NMI and Rosenberg in the
United States District Court for the Eastern District of
Pennsylvania.
B. Procedural History
After the involuntary bankruptcy petitions were
ﬁled, the action against Rosenberg was moved to the
United States District Court for the Southern District
of Florida, where he resides. That bankruptcy petition
was dismissed in August 2009. The petition against
NMI was also subsequently dismissed, based on collateral estoppel principles and the decisions in the Rosenberg bankruptcy.
Both NMI and Rosenberg brought separate adversary actions against the creditors, relying on 11 U.S.C.

App. 22
§ 303(i)(2). The Rosenberg claim went to a jury trial,
and the jury found bad faith on the part of the creditors
in bringing the involuntary bankruptcy and awarded a
total of $6.12 million in damages. Meanwhile, NMI
pursued an adversary action against the creditors in
the Eastern District of Pennsylvania. That case underlies the present appeal. In early motions practice, NMI
claimed it was entitled to a trial by jury for its claim
under 11 U.S.C. § 303(i)(2), but the creditors countered
that NMI had signed a settlement agreement waiving
that right. The District Court agreed that NMI was entitled to a jury trial with respect to those creditors that
were not parties to the settlement agreement or the
successors or agents of any such party. The effect of
that ruling was overtaken, however, by the parties’ motions for summary judgment.
NMI sought partial summary judgment, arguing
that preclusive effect should be given to the jury’s
finding in the Southern District of Florida that the
creditors acted in bad faith in filing an involuntary
bankruptcy against Rosenberg. The District Court denied that motion. The creditors ﬁled for full summary
judgment, saying NMI could not prove bad faith, as required under § 303(i)(2), and that, even if it could, their
bad faith actions did not cause NMI to go out of business.
The District Court held that “[t]here are limited
indicia of bad faith, which preclude any determination
on that issue as a matter of law. . . . Yet, the evidence
relating to bad faith does not rise to a level that would

App. 23
merit punitive damages, especially considering NMI’s
severe ﬁnancial distress.” Nat’l Med. Imaging, LLC v.
U.S. Bank, N.A., No. 16-5044, 2019 WL 4076768, at *4
(E.D. Pa. Aug. 28, 2019) (“SJ Opinion”). It also held
that NMI was not entitled to compensatory damages
because “the record establishes that NMI’s ﬁnancial
difﬁculties were caused by factors independent of the
involuntary bankruptcy petitions, and thus there is no
genuine dispute of material fact on the issue of proximate cause.” Id.
NMI timely appealed the grant of summary judgment in favor of the creditors and the denial of its own
motion for partial summary judgment.2 After brieﬁng
was almost concluded, NMI sought an injunction from
this court to stop an auction scheduled to occur on June
15, 2020, in which U.S. Bank could seek to purchase
NMI’s chose in action – this appeal – and thereafter
terminate the appeal, thus ﬁnally closing the case.

2

NMI also appealed the ruling that it had waived its right
to a jury trial with certain defendants based on an earlier settlement agreement with U.S. Bank. Ashland and the DVI entities
cross-appealed, arguing that, if we decide that the District Court
erred in granting summary judgment in their favor, we should
also ﬁnd that the District Court erred in determining that NMI
was entitled to a jury trial. The jury issue is irrelevant, however,
given our disposition of this appeal, so we do not address it.

App. 24
Discussion3

II.

NMI argues that, for three reasons, the District
Court erred in granting summary judgment. First, it
says that determining whether the creditors acted
with bad faith sufﬁcient to justify punitive damages is
a fact-intensive inquiry for a jury to decide and not appropriate for summary judgment, especially when the
Court did not grant summary judgment on the issue of
bad faith.4 Second, NMI relatedly argues that the District Court erred in denying its motion for partial summary judgment on the issue of bad faith based on
collateral estoppel principles. Finally, NMI asserts that
3

The bankruptcy court had jurisdiction under 28 U.S.C.
§ 157, and the District Court had jurisdiction over the adversary
proceeding under 28 U.S.C. § 1334. We have jurisdiction under 28
U.S.C. § 1291. We review a district court’s grant or denial of summary judgment de novo, applying the same standard that the district court applied. Jutrowski v. Twp. of Riverdale, 904 F.3d 280,
288 (3d Cir. 2018). Under that standard, a party is entitled to
summary judgment if it can establish that “there is no genuine
dispute as to any material fact[,]” and it “is entitled to judgment
as a matter of law[.]” Id. (quoting Fed. R. Civ. P. 56). The District
Court “has discretion in the awarding of damages under [11
U.S.C. §] 303(i)(2).” In re Landmark Distribs., Inc., 189 B.R. 290,
316 (Bankr. D.N.J. 1995). We therefore review that decision for
an abuse of discretion. Cf. Miller v. Apartments & Homes of N.J.,
Inc., 646 F.2d 101, 111 (3d Cir. 1981) (district court’s determination of punitive damages in housing discrimination case was not
an abuse of discretion).
4
As noted above, NMI sought partial summary judgment on
the issue of bad faith, asking the District Court to apply collateral
estoppel principles to the jury’s ﬁnding in the Southern District
of Florida. The District Court denied that motion, and NMI appeals it here. We do not address that portion of the appeal, however, because we are accepting, for the sake of argument, that the
creditors acted in bad faith.

App. 25
there are disputes of material fact as to whether the
involuntary bankruptcy caused NMI to cease operations, so summary judgment was inappropriate. We are
unpersuaded and instead agree with the District Court
that, even if the creditors acted with some degree of
bad faith, they are entitled to summary judgment because their behavior was not egregious enough to
justify punitive damages and NMI cannot prove the
involuntary bankruptcy proximately caused it any
harm.
A. Punitive Damages
The District Court granted the creditors’ motion
for summary judgment on the punitive damages issue
because it determined that NMI’s proof of bad faith,
even if accepted as true, was not sufﬁcient to show that
the creditors did anything bad enough to warrant an
award of punitive damages. On appeal, NMI argues
that, before the Court addressed punitive damages, a
jury should have addressed the question of bad faith,
which is a fact-intensive inquiry.
Under 11 U.S.C. § 303(i)(2)(B), a court “may” grant
punitive damages. “The key word in section 303(i) is
‘may’; that is, the court has considerable discretion
in deciding to award . . . damages under 303(i)(2). . . .
An award of punitive damages is discretionary even
when the involuntary filing is found to have been in
bad faith.” 2 Collier on Bankruptcy ¶ 303.33 (16th ed.
2020). The purposes of punitive damages under
§ 303(i) are the same as in other contexts: “punishment

App. 26
and deterrence.” In re Landmark Distribs., Inc., 189
B.R. 290, 317 (Bankr. D.N.J. 1995). “In considering
whether to award punitive damages, a court should
consider whether the petitioner in question’s conduct
was malicious and vengeful[.]” 2 Collier on Bankruptcy
¶ 303.33.
NMI’s central argument is that whether punitive
damages are justiﬁed is inextricably tied to the facts
that indicate bad faith. In NMI’s view, since the District Court did not decide the issue of bad faith, it could
not have rightly decided the issue of punitive damages.
NMI also claims that it need not prove harm to receive
punitive damages, eliminating the causation hurdle it
faces for compensatory damages. See In re S. Cal. Sunbelt Developers, Inc., 608 F.3d 456, 465 (9th Cir. 2010)
(“We . . . hold that punitive damages may be awarded
under § 303(i)(2)(B) even absent an award of actual
damages under § 303(i)(2)(A).”).
According to NMI, the creditors had improper motives in ﬁling the involuntary bankruptcy, as demonstrated by Fox’s email about “outﬁl[ing]” NMI. That
email, written to two other U.S. Bank employees a
month before the involuntary bankruptcy was contemplated or ﬁled, questioned whether U.S. Bank’s attorney in a separate state proceeding against NMI was
sufﬁciently aggressive. Fox wrote,
You have told me in the past that what you
know about [Rosenberg] is that he does not
conduct business above the table and is know
[sic] to due [sic] business is [sic] rough areas.
[K]nowing this and knowing that he will pull

App. 27
out all legal and questionable tactics, I really
need you to make sure that [our attorney] is a
street ﬁghter.
(App. 560.) She then wrote that she did not think their
attorney understood that he needed to “out ﬁle” Rosenberg “and not sit back and let things just go through
the court systems.” (App. at 560.) NMI also points out
that the creditors did not request an interim trustee
during the involuntary bankruptcy, despite their having represented that was a key purpose for initiating
the involuntary proceedings, and that some of the DVI
entities that were listed as creditors were no longer in
business when the petition was ﬁled. See In re Rosenberg, 414 B.R. 826, 837 (Bankr. S.D. Fla. 2009).
Even if those facts are taken at face value and as
indicating bad faith, we cannot say that the District
Court erred in concluding they do not justify punitive
damages. Fox’s email, although certainly suggestive of
an aggressive litigation strategy, does not evince malice towards NMI. And although the court dismissed the
involuntary bankruptcy as improperly ﬁled, that does
not mean that to the ﬁling – characterized aptly by the
District Court as “a negligent and hasty approach” –
constitute malicious, vengeful, or egregious behavior.
SJ Opinion, 2019 WL 4076768, at *10. That is especially true when considering the context of the petition’s ﬁling; Rosenberg had just told U.S. Bank that he
planned to cease operations. The District Court was
well within its discretion in determining that the level
of bad faith shown by NMI’s proof was not egregious
enough to justify an award of punitive damages.

App. 28
B. Compensatory Damages
NMI also argues that the District Court overlooked disagreements on material facts pertaining to
causation. Section 303(i)(2)(A) of the Bankruptcy Code
requires that any damages for which defendants may
be liable be “proximately caused” by the ﬁling of the
involuntary bankruptcy. The statute does not deﬁne
proximate cause, so the common law deﬁnition applies.
Field v. Mans, 516 U.S. 59, 69-70, 116 S.Ct. 437, 133
L.Ed.2d 351 (1995). Under general common law principles, proximate cause requires that the ﬁling be a
“ ‘substantial factor’ in bringing about the plaintiff ’s
harm.” Bouriez v. Carnegie Mellon Univ., 585 F.3d 765,
771 (3d. Cir. 2009).
Bankruptcy courts have held that when a business
was failing before the ﬁling of the involuntary bankruptcy, compensatory damages may not be justiﬁed.
See In re Cannon Express Corp., 280 B.R. 450, 460-61
(Bankr. W.D. Ark. 2002) (not awarding compensatory
damages because the debtor “was already experiencing
an economic downturn in its business” before the involuntary bankruptcy petition, so the court could not
determine what portion, if any, of the damage was
proximately caused by the petition); In re Atlas Mach.
& Iron Works, Inc., 190 B.R. 796, 804 (Bankr. E.D. Va.
1995) (“Although compensatory damages may include
loss of business during and after the pendency of the
case, the undisputed evidence indicated that [the]
business and work force had been on the wane for the
past ten years. . . . Consequently, any additional loss of
business following the ﬁling of the petition is purely

App. 29
speculative and therefore, is not compensable.”) (collecting cases). Although reputational harm can be cognizable, “[a]sserting that the stigma of bankruptcy
damaged a debtor’s business reputation and hurt goodwill is not, in and of itself, sufﬁcient evidence. There
must be evidence supporting a damage claim.” 2 Collier on Bankruptcy § 303.33.
Despite Rosenberg’s clear and contemporaneous
statements to the contrary, NMI claims that it was not
planning to close its centers before the involuntary
bankruptcy was ﬁled. It also says that the involuntary
bankruptcy ruined its reputation with physicians and
its primary lender. NMI ﬁrst points to deposition testimony from an NMI employee who said there had been
“hubbub talk” at referral centers about the involuntary
bankruptcy, so doctors were no longer referring patients to NMI for imaging services. (App. at 937.) But
that employee also admitted that none of the referring
physicians mentioned the involuntary bankruptcy.
NMI further points to the email it sent to employees in
October 2008, after closing centers in Maryland and Illinois. That email told employees that the company
had been forced to close the centers in Maryland and
Illinois because “the Deficit Reduction Act severely
affected the diagnostic imaging business,” and the
message encouraged employees to “work together to
increase our Pennsylvania viability.” (App. at 576.)
NMI says that the email is evidence of “a decision by
NMI to restructure” and that statements by Rosenberg
to the contrary were “taken out of context.” (Opening
Br. at 39.) Finally, NMI notes that the involuntary

App. 30
bankruptcy constituted an event of default under the
terms of its loan from its primary lender, Sterling
Bank.
Even when taken in the light most favorable to
NMI, the evidence does not prove causation. No reasonable jury would credit unsubstantiated rumors as
evidence, rumors that were, in any event, likely to be
ruled inadmissible hearsay. And that is all the NMI
employee could have provided. The email to employees
conﬁrms rather than refutes that NMI was experiencing severe ﬁnancial difﬁculties before the involuntary bankruptcy. In light of Rosenberg’s unambiguous
statement that he planned to close all of the imaging
centers by December 15, 2008, the email cannot fairly
be read as a call to restructure the business.
Indeed, there can be little doubt that NMI was on
the brink of failure when the involuntary bankruptcy
petition was ﬁled. According to Rosenberg’s contemporaneous reports, NMI had experienced a dramatic decline in business. Rosenberg consistently blamed the
Deﬁcit Reduction Act for those declines. Although NMI
identiﬁes one loan on which it defaulted as a result of
the involuntary bankruptcy, it does not dispute the evidence showing that it had already “maxed out [its]
credit line” with its primary lender, and that the bank
said there was “not a chance” it would have further extended credit to NMI, even without the involuntary
bankruptcy. (App. at 1437.) Because the involuntary
bankruptcy petition was ﬁled when NMI was already
in irreversible decline – by all appearances on the precipice of complete collapse – the petition was not the

App. 31
proximate cause of the business’s failure. A reasonable
jury could not ﬁnd otherwise.
III. Conclusion
For the foregoing reasons, we will afﬁrm the District Court’s grant of summary judgment in favor of the
creditors. Because our afﬁrmance of that judgment
concludes this case, we will deny the motion for an injunction as moot.

App. 32
DISTRICT COURT DECISION
2019 WL 4076768
United States District Court, E.D. Pennsylvania.
NATIONAL MEDICAL IMAGING, LLC, et al.,
Plaintiffs,
v.
U.S. BANK, N.A., et al., Defendants.
CIVIL ACTION NO. 16-5044
|
Filed 08/28/2019
Attorneys and Law Firms
Aris J. Karalis, Maschmeyer Karalis, P.C., Steven M.
Coren, David M. DeVito, Francis X. Lane, Melissa
Christine Mazur, Kaufman Coren & Ress PC, Philadelphia, PA, for Plaintiffs.
Peter H. Levitt, John W. Bustard, Shutts & Bowen,
LLP, Miami, FL, Steven J. Adams, Stacey A. Scrivani,
Stevens & Lee, Reading, PA, for Defendant U.S. Bank,
N.A.
Jack C. McElroy, Shutts & Bowen LLP, Orlando, FL,
Peter H. Levitt, John W. Bustard, Shutts & Bowen,
LLP, Miami, FL, Steven J. Adams, Stacey A. Scrivani,
Stevens & Lee, Reading, PA, for Defendants Lyon Financial Services, Inc., DVI Receivables XIV, LLC, DVI
Receivables XVI, LLC, DVI Receivables XVII, LLC,
DVI Receivables XVIII, LLC, DVI Receivables XIX,
LLC, DVI Funding, LLC, Jane Fox.

App. 33
Amy E. Vulpio, Siobhan Katherine Cole, White and
Williams, Philadelphia, PA, for Defendant Ashland
Funding, LLC.
MEMORANDUM OPINION
Rufe, District Judge
This case is one chapter in the protracted litigation following the aftermath of a complex securitization transaction, and the Court writes primarily for the
parties, who are familiar with the background. Plaintiffs National Medical Imaging, LLC and National
Medical Imaging Holding Company, LLC (collectively
“NMI”) allege that Defendants1 ﬁled involuntary bankruptcy petitions against them in bad faith in violation
of 11 U.S.C. § 303. Defendants have ﬁled motions for
summary judgment, and for the reasons that follow,
these motions will be granted.
BACKGROUND2

I.

NMI was a diagnostic imaging company headquartered in Philadelphia that provided management,
1

Defendants are: (1) U.S. Bank, N.A., (2) Lyon Financial
Services, Inc. (doing business as U.S. Bank Portfolio Services),
(3) DVI Receivables XIV, LLC, (4) DVI Receivables XVI, LLC,
(5) DVI Receivables XVII, LLC, (6) DVI Receivables XVIII, LLC,
(7) DVI Receivables XIX, LLC, (8) DVI Funding, LLC, (9) Ashland
Funding, LLC, and (10) Jane Fox.
2
Unless otherwise noted, the following facts are undisputed.
The following background is drawn primarily from the Court’s
Memoranda issued on July 12, 2017 [Doc. No. 13], and April 30,
2018 [Doc. No. 49].

App. 34
billing, and collection services for diagnostic imaging
centers. NMI was afﬁliated with certain limited partnerships (the “NMI LPs”) that operated diagnostic
imaging centers. In 2000, the NMI LPs entered into
various master leases and equipment schedules (“Master Leases”) with DVI Financial Services to ﬁnance the
purchase of equipment for use at the centers. These
Master Leases were secured by a limited guaranty executed by Maury Rosenberg, the managing member of
NMI, and an additional guaranty by NMI.
DVI Financial then transferred some of the Master Leases to DVI Funding, LLC, which held them
directly, and the remainder were securitized and assigned to the DVI Receivables corporations. At the
same time, DVI Funding entered into indentures with
U.S. Bank, acting as trustee of the transaction, under
which notes were issued to investors with the Master
Leases serving as collateral. DVI Financial was appointed as servicer for the trustee, U.S. Bank, but after
ﬁling for bankruptcy in 2003, DVI Financial transferred its rights as servicer to Lyon Financial Services,
a subsidiary of U.S. Bank.3
In 2003, U.S. Bank declared the Master Leases to
be in default and ﬁled multiple suits in the Court of
Common Pleas of Bucks County, Pennsylvania, against
NMI. While those actions were pending, several DVI
3

At the relevant time, Lyon was a subsidiary of U.S. Bank,
and controlled the DVI entities. In 2011, Lyon merged with U.S.
Bank, with U.S. Bank as the surviving company. For clarity, the
Court will refer to all conduct of U.S. Bank and Lyon as conduct
of U.S. Bank.

App. 35
entities ﬁled involuntary bankruptcy petitions against
NMI, that resulted in a Settlement Agreement in August of 2005, by which the petitions were dismissed
and U.S. Bank restructured the repayment obligations;
in return, Rosenberg and NMI executed new guaranties of repayment and confessions of judgment in favor
of U.S. Bank. On March 2, 2007, DVI Funding sold its
interest in the Master Leases to Ashland Funding,
LLC.
In July 2008, U.S. Bank ﬁled a confession of judgment against NMI and Rosenberg in Bucks County for
defaulting on their repayment obligations under the
August 2005 Settlement Agreement. This action was
stayed on August 29, 2008,4 and on November 7, 2008,
despite having no remaining interest in the Master
Leases, DVI Funding and ﬁve other DVI entities ﬁled
involuntary bankruptcy petitions against NMI and
Rosenberg in the United States Bankruptcy Court for
the Eastern District of Pennsylvania.
The proceedings against Maury Rosenberg were
ultimately transferred to the Southern District of Florida, where he resides, while the bankruptcy proceedings against NMI remained in this district.5 The
Florida Bankruptcy Court dismissed the involuntary
bankruptcy petition against Rosenberg on August 21,

4

Order Staying Execution of Confessions of Judgment, Ex.
25 [Doc. No. 85-4].
5
The Florida Bankruptcy Court also retained jurisdiction to
hear any claim pursuant to 11 U.S.C. § 303(i) for the bad faith
ﬁling of an involuntary bankruptcy petition.

App. 36
2009 (Rosenberg I),6 a decision which was afﬁrmed by
both the United States District Court Southern District of Florida and the Eleventh Circuit.
Following the dismissal of the bankruptcy proceedings in Florida, the Bankruptcy Court for the
Eastern District of Pennsylvania dismissed the involuntary bankruptcy petitions against NMI on the basis
of collateral estoppel; speciﬁcally, based on Rosenberg
I’s holdings that (1) the DVI entities and Ashland were
not real parties in interest and (2) U.S. Bank was the
only creditor because the Settlement Agreement constituted a novation.7 The decision was afﬁrmed by both
this Court (“Rosenberg II”)8 as well as the Third Circuit
(“Rosenberg III”).9

6

In re Rosenberg, 414 B.R. 826 (Bankr. S.D. Fla. 2009). The
Florida Bankruptcy Court reached ﬁve alternative holdings:
(1) there was no guaranty in favor of the DVI entities or Ashland,
and therefore they were not creditors of Rosenberg; (2) the DVI
entities and Ashland were not the real parties in interest; (3) the
DVI entities were judicially estopped from ﬁling the involuntary
bankruptcy petitions because Lyon had claimed that the Rosenberg guaranty was owed to it when ﬁling the confession of judgment in the Bucks County court; (4) Lyon was Rosenberg’s only
creditor because the Settlement Agreement constituted a novation; and (5) the DVI entities and Ashland held contingent claims
subject to a bona ﬁde dispute. Id.
7
In re Nat’l Medical Imaging, LLC, 439 B.R. 837, 847-52
(Bankr. E.D. Pa. 2009).
8
DVI Receivables XIV, LLC v. Nat’l Med. Imaging, LLC, 529
B.R. 607, 627 (Bankr. E.D. Pa. 2015).
9
Nat’l Med. Imaging, LLC v. Ashland Funding LLC, 648 F.
App’x 251, 252-53 (3d Cir. 2016).

App. 37
Prior to the ﬁling of the November 2008, involuntary bankruptcy petitions against it, NMI was experiencing ﬁnancial difﬁculties that it claimed were due in
part to the Deﬁcit Reduction Act (“DRA”), which impacted the billing of medical imaging services.10 In
light of these difﬁculties, NMI began discussions with
U.S. Bank in 2008, in an effort to restructure its outstanding debt. The parties have offered conﬂicting
characterizations of their unsuccessful attempts to negotiate such an agreement. NMI contends that U.S.
Bank “had no interest in negotiating a restructuring of
NMI’s debt or working with NMI to ﬁnd a realistic solution,”11 while Defendants assert that U.S. Bank “engaged in a dialogue with NMI for several months. But
NMI refused to provide center-by-center ﬁnancials,
made exceedingly low offers . . . and, when those offers
were not accepted, chose the nuclear option—closing
the centers.”12
In October 2008, Rosenberg decided to close NMI’s
Maryland and Illinois locations, and notiﬁed Jane Fox,
who was then the Director of Operations for a subsidiary of U.S. Bank, that NMI would surrender the
equipment leased from U.S. Bank located in the Pennsylvania imaging centers.13 By November of 2009, NMI
10

See Pls.’ Omnibus Mem. in Opp. Summ. J. [Doc. No. 85]

at 5.
11
12

Pls.’ Omnibus Mem. in Opp. Summ. J. [Doc. No 85] at 7.
Defs.’ Omnibus Reply in Supp. Summ. J. [Doc. No. 90]

at 8.
13

October 6, 2008 Letter from Maury Rosenberg to Jane Fox,
Ex. 33 [Doc. No. 85-4].

App. 38
closed all of its locations and effectively became defunct. The parties disagree as to whether the involuntary bankruptcy petitions were a proximate cause of
the business’s ultimate demise.
NMI, Maury Rosenberg, and various related entities have ﬁled a series of lawsuits in this Court and in
Florida, seeking compensation for the harm they allege
to have suffered as a result of the involuntary bankruptcy petitions purportedly ﬁled in bad faith. Maury
Rosenberg brought one such claim for sanctions under
§ 303(i)(2) in the Florida Bankruptcy Court against the
petitioners of the involuntary bankruptcy petitions. A
jury trial was ultimately held on these claims, resulting in a verdict in favor of Maury Rosenberg.14 Additionally, Sara Rosenberg, the Douglas Rosenberg
Trust, and other entities related to Maury Rosenberg
and NMI ﬁled suit for tortious interference with contract and business relationships against the petitioners, based on the same facts, in the Southern District
of Florida, which was transferred to this Court.15

14

The District Court of the Southern District of Florida set
aside the award of compensatory damages for lost wages and injury to reputation, “because the evidence d[id] not establish the
involuntary bankruptcy proximately caused Plaintiff to lose
wages or injure his reputation,” and also set aside the award of
punitive damages. Rosenberg v. DVI Receivables, XIV, LLC, No.
12-22275, 2014 WL 4810348, at *1 (S.D. Fla. 2014). This decision
was vacated by the Eleventh Circuit, however, as the underlying
Rule 50 motion was deemed untimely. Rosenberg v. DVI Receivables XIV, LLC, 818 F.3d 1283 (11th Cir. 2016).
15
Civil Action No. 14-5608. Summary judgment motions
have also been ﬁled in that case.

App. 39
In this case brought under § 303(i)(2),16 NMI seeks
compensatory and punitive damages for the alleged
harm to NMI arising from the involuntary bankruptcy
petitions. NMI contends that Defendants ﬁled the petitions in bad faith and as a result:
[T]he Plaintiffs’ valuable businesses were destroyed because, among other reasons, the
commencement and continued prosecution of
the involuntary bankruptcy cases: (1) caused
Plaintiffs to lose preferred provider status
with major insurers; (2) caused physicians to
lose conﬁdence in the Plaintiffs’ stability and
to divert their patients to other providers;
(3) caused lenders to cutoff the Plaintiffs’
access to receivables, thereby creating a liquidity crisis; (4) caused vendors to put the companies on a COD basis, thereby further eroding
cash and liquidity; and (5) destroyed Plaintiffs’
16

On May 27, 2014, Plaintiffs brought claims for attorneys’
fees and costs under § 303(i)(1) and Bankruptcy Rule 9011 in two
adversary proceedings in the Pennsylvania Bankruptcy Court.
Plaintiffs also ﬁled a complaint in this Court against Defendants
seeking damages under § 303(i)(2). On March 30, 2014, this Court
granted Defendants’ Motion to Dismiss Plaintiffs’ Complaint,
holding that § 303(i)(2) does not create an independent cause of
action that may be brought directly in the district court. Plaintiffs
then ﬁled Amended Complaints in the adversary proceedings,
adding claims for damages under § 303(i)(2), and moved to withdraw the references from the Pennsylvania Bankruptcy Court as
to the § 303(i)(2) claims. The Court granted Plaintiffs’ motion on
September 1, 2016.
NMI ﬁled the operative Amended Complaint on September
21, 2016, in accordance with the Order of this Court granting
NMI’s request to withdraw the reference form the Bankruptcy
Court.

App. 40
reputations in the community, and torpedoed
planned acquisitions and expansion.17
All Defendants have now moved for summary
judgment on NMI’s claim under § 303(i)(2). Defendant
U.S. Bank has also moved for default judgment on its
counterclaim, in which it seeks to setoff the amount
due to it under a state court judgment it obtained
against Plaintiffs in Bucks County, either in full or partial satisfaction of any judgment NMI obtains in this
action.18
II.

LEGAL STANDARD

A court will award summary judgment on a claim
or part of a claim where there is “no genuine dispute
as to any material fact and the movant is entitled to
judgment as a matter of law.”19 A fact is “material” if
resolving the dispute over the fact “might affect the
outcome of the suit under the governing [substantive]
law.”20 A dispute is “genuine” if “the evidence is such
that a reasonable jury could return a verdict for the
nonmoving party.”21
In evaluating a summary judgment motion, a
court “must view the facts in the light most favorable
to the non-moving party,” and make every reasonable
17
18
19
20
21

Am. Compl. [Doc. No. 2] ¶ 72.
Countercl. [Doc. No. 5] ¶¶ 9-11.
Fed. R. Civ. P. 56(a).
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986).
Id.

App. 41
inference in that party’s favor.22 Further, a court may
not weigh the evidence or make credibility determinations.23 Nevertheless, the party opposing summary
judgment must support each essential element of the
opposition with concrete evidence in the record.24 “If
the evidence is merely colorable, or is not signiﬁcantly
probative, summary judgment may be granted.”25 This
requirement upholds the “underlying purpose of summary judgment [which] is to avoid a pointless trial in
cases where it is unnecessary and would only cause delay and expense.”26 Therefore, if, after making all reasonable inferences in favor of the non-moving party,
the court determines that there is no genuine dispute
as to any material fact, summary judgment is appropriate.27
III. DISCUSSION
Where an involuntary bankruptcy petition is dismissed other than on consent of all petitioners and the
debtor, a court may grant judgment “against any petitioner that ﬁled the petition in bad faith, for—(A) any
22

Hugh v. Butler Cty. Family YMCA, 418 F.3d 265, 267 (3d
Cir. 2005).
23
Boyle v. Cty. of Allegheny, 139 F.3d 386, 393 (3d Cir. 1998).
24
Celotex Corp. v. Catrett, 477 U.S. 317, 322-23 (1986).
25
Anderson, 477 U.S. at 249-50 (internal citations omitted).
26
Walden v. Saint Gobain Corp., 323 F. Supp. 2d 637, 641
(E.D. Pa. 2004) (citing Goodman v. Mead Johnson & Co., 534 F.2d
566, 573 (3d Cir. 1976)).
27
Wisniewski v. Johns-Manville Corp., 812 F.2d 81, 83 (3d
Cir. 1987).

App. 42
damages proximately caused by such ﬁling; or (B) punitive damages.”28 In moving for summary judgment,
Defendants contend that there is no genuine issue of
material fact concerning bad faith, causation, or punitive damages.
As discussed below, the record makes clear that
neither compensatory damages nor punitive damages
are warranted in this case. Speciﬁcally, the record establishes that NMI’s ﬁnancial difﬁculties were caused
by factors independent of the involuntary bankruptcy
petitions, and thus there is no genuine dispute of material fact on the issue of proximate cause. There are
limited indicia of bad faith, which preclude any determination on that issue as a matter of law, such as insufﬁcient pre-ﬁling investigation into the facts and
law. Yet, the evidence relating to bad faith does not rise
to a level that would merit punitive damages, especially considering NMI’s severe ﬁnancial distress.
1. Compensatory Damages
Where a petitioner ﬁles an involuntary bankruptcy petition in bad faith, the debtor can recover for
“any damages proximately caused by such ﬁling.”29
Such damages may not be based on speculation or
mere conjecture.30 In this case, Defendants argue that
any purported injuries caused by the involuntary
28
29
30

1988).

11 U.S.C. § 303(i)(2).
11 U.S.C. § 303(i)(2)(A).
Archer v. Macomb Cty. Bank, 853 F.2d 497, 499 (6th Cir.

App. 43
petitions are purely speculative, especially in light of
NMI’s “dire ﬁnancial straits,”31 and as NMI was closing
its centers before the involuntary petitions were even
ﬁled. The Court agrees.
NMI concedes that it had been suffering losses
prior to the involuntary bankruptcy petitions due to
the DRA,32 and evidence in the record sheds light on
the severity of its losses. In a letter NMI sent to U.S.
Bank, NMI asserted that the DRA resulted in a “signiﬁcant reduction” in reimbursements, reductions in
the number of patients that could be seen in outpatient
centers, a decline of about 16% in total scan volume
from 2005 to 2007, an overall company volume decline
of about 19% when comparing January 2007 to January 2008, and a “severe reduction in cash collections.”33
These changes “brought about disastrous results” for
NMI.34 According to Plaintiffs, Maury Rosenberg closed
all of the NMI’s Maryland and Illinois centers in October of 2008, “as a cost-cutting measure.”35
The record also includes substantial evidence that,
in the face of the obstacles posed by the DRA and before the involuntary bankruptcy petitions were ﬁled,
Rosenberg had decided to close all of the NMI centers.
As early as April 9, 2008, Rosenberg wrote in an email
31
32

See U.S. Bank’s Mot. Summ. J. [Doc. No. 78] at 5.
See Pls.’ Omnibus Mem. in Opp. Summ. J. [Doc. No. 85]

at 9.
33
34
35

April 7, 2008 Letter [Doc. No. 78-7] at 1-4.
Id. at 3.
Pls.’ Omnibus Mem. in Opp. Summ. J. [Doc. No. 85] at 9.

App. 44
that “[m]ost outpatient centers are in the process of
closing their doors and it is my opinion that in the very
near term will stop to exist,” and NMI’s efforts to cut
costs “are not sufﬁcient for [NMI] to survive” in the
face of the “draconian changes brought about by the
DRA.”36 In this email, Rosenberg blamed “the nonproﬁt
and government authorities” for this ﬁnancial hardship.37 Rosenberg also expressed his intention to close
NMI in numerous pre-petition emails to U.S. Bank representatives. Jane Fox asserts that Maury Rosenberg
informed her that he was closing imaging centers in
October 2008.38 On November 3, 2008, Rosenberg, apparently referencing a prior conversation concerning
the closing of all NMI centers, wrote to Bob Brier, U.S.
Bank’s business consultant at the time, that “as previously discussed, we are in the process of closing all of
the centers [and] this process should be completed no
later than 12/15/08.”39 That same day, Maury Rosenberg told a potential purchaser that NMI “expects to
close all of the [Pennsylvania] centers prior to MidDecember and is in the process of negotiating real estate lease terminations and will tender the equipment

36

April 9, 2008 Email from Maury Rosenberg, [Doc. No. 7825] at 2.
37
Id.
38
Jane Fox Dep. [Doc. No. 78-8] at 351 (emphasis added).
Fox asserted that, at the time of the ﬁling her understanding was
that “all of the operations were going to close down,” and she was
“told by Mr. Rosenberg at [her] deposition in October [2008] that
they were closing down imaging centers.” Id. at 350-51.
39
Email Nov. 3, 2008, A-11 [Doc. No. 78-12].

App. 45
back to the secured lenders.”40 A few days later, on November 6, 2008, Rosenberg urged Brier to begin picking up equipment at the Pennsylvania sites because
various landlords were calling.41
Rosenberg now disputes the veracity of his own
statements to Brier and to a potential purchaser, and
contends that he made them only out of frustration.42
He asserts that he intended to keep open several NMI
centers, and in support, points to his communications
with Sterling National Bank (with which NMI had
obtained a line of credit) in which he asserted his intention to keep four to five centers open once the involuntary petition was dismissed.43 These statements
were made after the involuntary petitions were ﬁled,

40

November 3, 2008 Email from Maury Rosenberg to Mary
Ellen Garling [Doc. No. 78-14].
41
November 6, 2008 email from Maury Rosenberg to Brier
[Doc. No. 78-13].
42
“It was reasonable for Rosenberg to be frustrated and hesitant to engage in discussions with another potential buyer when
the exercise appeared to be futile in resolving NMI’s dispute with
U.S. Bank,” and, “[g]iven this backdrop, a jury could reasonably
infer that Rosenberg made his ‘closing all centers’ comment,
which was related only to the U.S. Bank locations (not the whole
business itself ), out of frustration and that it was not, in fact, the
true intention of NMI at that time.” Pls.’ Omnibus Mem. Opp.
Summ. J. [Doc. No. 85] at 37.
43
Sterling Bank Memo, March 30, 2009, Ex. 61 [Doc. No. 856] at 55 (“Once the bankruptcy case is resolved they [sic] company
plans on closing down most of their centers and keeping around 4
or 5 open. These centers are their most proﬁtable centers. The
company should then be self-sufﬁcient with no ﬁnancing requirements anticipated.”).

App. 46
and inconsistencies in Maury Rosenberg’s representations to interested parties do not give rise to a genuine
dispute of material fact.
In addition to the evidence that Rosenberg intended to close down NMI’s business before the involuntary bankruptcy petitions were ﬁled, the speciﬁc
injuries that Plaintiffs complain of are not supported
by the record.
1. Purported Loss of Preferred Provider Status and
Physicians’ Confidence in NMI
First, NMI alleges that it lost “preferred provider
status” and the conﬁdence of referring physicians as a
result of the involuntary bankruptcy petitions. Initially, it is not clear that “preferred provider status”
even exists in the sense that NMI alleges. According to
Ann Marie Iannarelli, NMI’s Senior Vice President of
Operations, “preferred provider status” is a means by
which insurance companies can recommend where a
patient should go, and NMI was “at the top of the list
if not number one most of the time” based on the “service and quality of work,” but they got “pushed down
on the provider list from number one to midstream” after the involuntary bankruptcy petitions were ﬁled.44
However, Defendants’ expert, David Levin, M.D., has
asserted that “there is no such thing as ‘preferred’
44

Iannarelli Dep. [Doc. No. 75-11] at 23, 50-52. Iannarelli admits that these insurance companies were not a source of referrals, but these “preferred provider lists” would be used where a
patient wanted to see who their insurance company recommended. Id. at 23-24.

App. 47
provider status with the insurers. You either have a
contract with the insurer to be part of their approved
network or you don’t. Once you’re approved there is no
list of providers who are ‘preferred’ on the basis of their
ﬁnancial status.”45 NMI has not offered evidence or further explanation as to whether companies are essentially rated on these preferred provider listings.46
Additionally, NMI does not offer any statements
from physicians to show that they lost conﬁdence in
NMI as a result of the involuntary bankruptcy petitions or that they were even aware of the petitions. In
fact, Maury Rosenberg admitted that he did not have
anything in writing that indicates that any insurance
company dropped NMI as a preferred provider because
of the involuntary petition.47 Plaintiffs instead rely on
statements of Iannarelli, who testiﬁed that it was her
belief that physicians stopped referring patients to
NMI for fear that it might go out of business and patients would be unable to get their medical records.48
45

Expert Report of David C. Levin, M.D. [Doc. No. 78-16]

at 18.
46

While Plaintiffs expert, John Mitchell, mentioned the loss
of “preferred provider listings” as an injury caused by the involuntary petitions, he does not elaborate on its meaning and cites
only to the depositions of Maury Rosenberg and Iannarelli for
support. Report on Economic Damages, Ex. 73 [Doc. No. 85-8] at
18. Iannarelli herself admits that she did not have any discussions with anybody at Aetna about the Preferred Provider List.
Iannarelli Dep. [Doc. No. 75-11] at 57.
47
Maury Rosenberg Dep., Ex. 70 [Doc. No. 85-7] at 322-25.
48
Iannarelli Dep. [Doc. No. 75-11] at 26 (“we had lost some
of our stability in the ﬁeld because [the referring physicians] all
knew about the involuntary as well. And we were perceived as not

App. 48
Yet, Iannarelli admitted that she did not personally
discuss the bankruptcy with any of the referring physicians, and based her testimony on this subject on
“hubbub talk.”49 Iannarelli’s belief that NMI’s reputation deteriorated in the eyes of physicians, as well as
her belief that such purported harm was due to the
involuntary petitions, as opposed to the financial difficulties NMI was already facing, is too biased and
speculative to preclude summary judgment.
2. Loss of Accounts Receivable to Sterling National
Bank
Rosenberg’s allegation that the involuntary bankruptcy petition “irreparably fractured” NMI’s relationship with Sterling National Bank (“Sterling”) and
caused it to lose its receivables to Sterling is also unsupported by the record. As background, NMI had obtained a line of credit and a term loan from Sterling in
2007, secured by a lien on NMI’s accounts receivable.
Plaintiffs allege that Sterling found out about the involuntary bankruptcy in March 2009 from a Dunn and
Bradstreet search, and issued a letter of default to
NMI, citing the involuntary bankruptcy as the ﬁrst
reason for default. According to Plaintiffs, this default
ultimately resulted in a forbearance agreement which
NMI violated, thus resulting in the loss of the accounts
receivable.
being, maybe not there tomorrow. So we were not getting directly
from the referring physicians as we used to . . . ”).
49
Id. at 26-27.

App. 49
However, the record establishes that NMI was already in default of its loan from Sterling based on
NMI’s failure to comply with the covenants in their
Loan and Security Agreement; namely, violations of
the required debt to tangible net worth ratio covenant,
the tangible net worth covenant, and the EBITDA covenant.50 Sterling sent NMI a default letter explaining
these violations on August 21, 2008.
In September 2008, Maury Rosenberg had a meeting with two representatives from Sterling to discuss
NMI’s large daily overdrafts, many of which ranged
from $500,000 to $800,000, and “were the result of
checks written to the [Douglas Rosenberg] Trust to
cover deposits the Trust made on behalf of NMI the day
before.”51 Additionally, Maury Rosenberg told Sterling
that he did not have any additional collateral and that
the Trust (which owned 99% of NMI) would not provide
a guaranty.52 Sterling informed Maury Rosenberg that
NMI would have to “ﬁnd another source of ﬁnancing,”
Sterling was unwilling to consider his request for a
higher line of credit, and Sterling “wanted the loan to
come down in an orderly fashion.”53 Sterling’s former
Senior Vice President, Joseph Costanza, asserted that
Sterling was “looking to exit its relationship with
NMI,” prior to October of 2008, and that Maury

50
51
52
53

August 21, 2008 Default Letter [Doc. No. 78-17].
October 6, 2008 Memo [Doc. No. 78-18] at 1-2.
Id.
Id.

App. 50
Rosenberg was informed of this intention at the September 2008 meeting.54
Furthermore, the events that followed Sterling’s
discovery of the involuntary bankruptcy petition, including the creation and subsequent violation of the
forbearance agreement, were not driven by the involuntary petitions as Plaintiffs suggest. While Plaintiffs
are correct that the second default letter dated March
25, 2009, referenced the involuntary bankruptcy petitions, this letter also noted that NMI failed to notify
Sterling about the involuntary bankruptcy petition as
required, and that NMI failed to cure the violations
listed in the prior default letter from August 21, 2008.55
Additionally, the evidence shows that NMI breached
the forbearance agreement by diverting funds to a nonpermitted account at another bank, and by repaying
the subordinated Trust debt ahead of Sterling.56 Plaintiffs have not produced sufﬁcient evidence from which
a reasonable jury could conclude that Sterling would
not have made the decision it did in the absence of the
involuntary bankruptcy petition.

54

Joseph Costanza Dep. [Doc. No. 90-38] at 60.
March 25, 2009 Default Letter [Doc. No. 78-19].
56
Joseph Costanza Dep. [Doc. No. 90-38] at 97 (Costanza, the
president of SNB at the time, explained that making deposits of
Sterling’s collateral into an account with a different bank was a
“mortal sin” and was “in and of itself a good enough reason to stop
funding the credit line.”).
55

App. 51
3. Allegation of Inability to Obtain Additional Credit
Finally, Plaintiffs’ claim that the involuntary
bankruptcy petitions caused NMI to lose access to
credit lines lacks support in the record. In an April 7,
2008 letter, NMI’s counsel wrote that, “[g]iven the state
of the industry and the liquidity markets, NMI does
not expect additional sources of funding will be available in 2008.”57 In an April 9, 2008 email, Maury Rosenberg reiterated this comment, and also noted that NMI
“does not have the cash ﬂow, or access to additional
debt, needed to continue and in most likelihood shortly
default on its debt,” and that its efforts to cut its expenses “are not sufﬁcient for [NMI] to survive” in the
face of the “draconian changes brought about by the
DRA.”58 Plaintiffs did not attempt to explain or support
this purported injury in their brieﬁng. Indeed, Plaintiffs’ brief in opposition to summary judgment rests
largely on their argument that involuntary bankruptcy petitions are per se damaging, which is not what
the law requires.59

57

April 7, 2008 Letter [Doc. No. 78-7] at 3.
April 9, 2008 Email from Maury Rosenberg, [Doc. No. 7825] at 2.
59
See, e.g., In re Atlas Mach. And Iron Works, Inc., 190 B.R.
796, 804 (Bankr. E.D. Va. 1995) (“Atlas failed to proffer any evidence indicating that its loss in business during and after the ﬁling was caused by the actions of Bethlehem. Moreover, argument
by counsel about the stigma of bankruptcy is not evidence of any
damage proximately caused to Atlas’s ongoing business reputation. Consequently, any additional loss of business following the
ﬁling of the petition is purely speculative and therefore, is not
compensable.”).
58

App. 52
Thus, considering that lack of support in the
record for the injuries of which Plaintiffs complain, in
combination with the overwhelming evidence that
NMI was closing due to forces and decisions independent of the involuntary bankruptcy petitions, there is no
genuine dispute of material facts relating to whether
Defendants’ actions proximately caused injury to NMI.
2. Punitive Damages
Punitive damages may be awarded whether or not
there is proof of actual damages.60 “The purposes for
assessing punitive damages are to punish the wrongdoer, to deter him from repeating his misdeeds, and to
set an example so that others will be dissuaded from
engaging in such conduct.”61 In assessing whether to
grant punitive damages, courts consider “the degree
and nature of the wrong to the debtor, the intent of the
creditors, and any surrounding aggravating or mitigating circumstances.”62 [T]he most important indicium
of the reasonableness of a punitive damages award
is the degree of reprehensibility of the defendant’s
conduct,”63 and punitive damages may be appropriate where the defendants’ conduct is malicious or

60

In re S. Cal. Sunbelt Developers, Inc., 608 F.3d 456, 465
(9th Cir. 2010) (“Section 303(i)(2) expressly authorizes a stand
alone award of punitive damages.”).
61
In re K.P. Enter., 135 B.R. 174, 183 (Bankr. D. Me. 1992).
62
In re Anmuth Holdings LLC, 600 B.R. 168, 202-03 (Bankr.
E.D.N.Y. 2019).
63
BMW of N. Am. Inc. v. Gore, 517 U.S. 559, 575 (1996).

App. 53
vengeful.64 Punitive damages require more than bad
faith, and “are only warranted when the evidence
shows that a defendant acted ‘with intentional malice’
or that its conduct was ‘particularly egregious.’ ”65
Here, the Court ﬁnds limited indicia of bad faith
by Defendants. There is, for example, some evidence
64

See In re Anmuth Holdings LLC, 600 B.R. 168, 203 (Bankr.
E.D.N.Y. 2019) (awarding punitive damages where petitioners’
“actions reveal that they were motivated by malice and ill will,”
and acted vindictively); Rosenberg v. DVI Receivables, XIV, LLC,
2014 WL 4810348, at *9 (S.D. Fla. 2014) (“When viewed in the
light most favorable to Plaintiff, the evidence is wholly lacking to
support a ﬁnding of egregious or malicious conduct, such that the
law would permit the imposition of punitive damages. Accordingly, the punitive damages award is set aside as a matter of
law.”); In re K.P. Enterprise, 135 B.R. at 184 (ﬁnding punitive
damages not merited where, “although misguided and recalcitrant, [the defendant’s conduct] was not malicious or vengeful,”
and the policy at work in § 303(i) would not be advanced by
awarding punitive damages); In re John Richards Homes Bldg.
Co., LLC, 312 B.R. 849, 866 (Bankr. E.D. Mich. 2004) (awarding
punitive damages because of the petitioning creditor’s “use of the
involuntary bankruptcy process to intentionally inﬂict injury as
well as his actions to exacerbate the impact of this injury (e.g.,
hiring the public relations ﬁrm to publicize the involuntary petition)”); Hutchison ex rel. Hutchison v. Luddy, 870 A.2d 766, 770
(Pa. 2005) (“[P]unitive damages are appropriate for torts sounding in negligence when the conduct goes beyond mere negligence
and into the realm of behavior which is willful, malicious or so
careless as to indicate wanton disregard for the rights of the parties injured.”).
65
U.S. Bank, Nat’l Ass’n v. Rosenberg, 741 F. App’x 887, 890
(3d Cir. 2018) (citing Rosenberg v. DVI Receivables, XIV, LLC,
2014 WL 4810348, at *6); see also In re K.P. Enter., 135 B.R. at
183 (“Section 303(i)(2) clearly provides for a discretionary punitive damages award, but imposition of punitive damages does not
necessarily follow a bad faith ﬁnding.”).

App. 54
that Defendants were negligent and hasty in their ﬁling of the involuntary bankruptcy petition as to NMI.
However, Plaintiffs have not produced evidence of maliciousness or the type of egregious conduct that would
warrant an award of punitive damages.
In evaluating whether an involuntary bankruptcy
petition was ﬁled in bad faith, the Third Circuit in In
re Forever Green Athletic Fields, Inc. adopted a “totality
of the circumstances” standard, which is a “fact-intensive review” pursuant to which a court may consider a
number of factors, including: whether the creditors satisﬁed the statutory criteria for ﬁling the petition,
whether the creditors made a reasonable inquiry into
the relevant facts and law before ﬁling, whether the
ﬁling was motivated by ill will or a desire to harass,
whether the ﬁling was used to gain a tactical advantage in pending actions, and whether the ﬁling had
suspicious timing.66
There is some conflicting evidence as to Defendants’
level of diligence in inquiring into the facts and law before ﬁling the involuntary bankruptcy petitions. The
petitions were dismissed because Defendants failed to
meet the numerosity requirement of § 303(b)(1) once
the bankruptcy court determined that the DVI entities
were not real parties in interest. In fact, on the petition
date, the corporate good standing of the majority of the
DVI entities had lapsed and had been administratively
dissolved.67 Fox, Brier, and Pinel admit that they did
66
67

804 F.3d 328, 336 (3d Cir. 2015).
In re Rosenberg, 414 B.R. 826, 837 (Bankr. S.D. Fla. 2009).

App. 55
not do any investigation to determine the number or
identity of the potential creditors of NMI,68 and Pinel
admitted that he did not do any investigation prior to
the commencement of the involuntary bankruptcies
as to the status of the creditors, and that “as it turns
out,” no one did; instead, Pinel “made an assumption”
that someone had looked into this.69 Pinel acknowledged that the ﬁling of this petition was a “fast moving
process” that “needed to be done quickly,”70 as Maury
Rosenberg had represented that NMI, who had been
failing to pay its creditors, was on the brink of closing
up entirely.71 Given the extensive evidence that NMI
was in serious ﬁnancial distress, the failure to adequately inquire into the facts and law, although
68

Brier asserted that he did not perform any due diligence
before ﬁling the petitions to determine “[e]xactly how many” creditors NMI and the Holding Company had. Brier Dep., Ex. 48 [Doc.
No. 85-5] at 27. He also did not communicate with IBM or do any
due diligence to determine if the creditors of the Holding Company were being paid in accordance to their terms. Id. at 28. Nor
did he order a credit report of NMI or speak with any creditor of
NMI or anyone from Sterling Bank or National Penn Bank prior
to ﬁling the involuntary. Id. at 42-43; Tr. Jury Trial, Ex. 49 [Doc.
No. 85-5] at 22. Jane Fox asserted that she personally did not do
anything to determine whether NMI had more than 12 creditors,
and that no one at Lyon did any due diligence and that she did
not know if anyone performed any due diligence on this issue.
Dep. Jane Fox, Ex. 50 [Doc. No. 85-5] at 111-13. Pinel asserted
that he did not do an investigation as to what a likely return to
creditors may be, and he did not know who the creditors were,
but “knew there was a number of creditors out there.” Ex. 40
at 71, 80.
69
Pinel Dep., Ex. 40 [Doc. No. 85-5] at 128.
70
Pinel Dep., Ex. 40 [Doc. No. 85-5] at 75-76.
71
Pinel Dep., Ex. 40 [Doc. No. 85-5] at 75-76.

App. 56
certainly improper, does not rise to the level of maliciousness that would warrant punitive damages.
There is also conﬂicting evidence as to Defendants’
ultimate goal, or purpose, for ﬁling the petitions, which
precludes summary judgment on the issue of bad faith.
Pinel, Brier, and Fox have indicated that, in light of
what they believed to be the imminent shutdown of
NMI, the main purpose in ﬁling the involuntary bankruptcy petitions was to appoint an interim trustee who
could continue to operate the businesses.72 Once the
petitions were ﬁled, Defendants never moved to have
an interim trustee appointed. Fox asserted that she did
not know why the request for an interim trustee was
never made.73 Brier stated that he asked for an interim
trustee to be appointed “frequently,” that he believed
that Pinel would “take care of it,” and that he realized
no request had been made “shortly after the ﬁling” of
the petitions, because he “was still asking, how [to] get
72

In an email to Brier, Pinel stated that “[t]he only way” to
prevent Maury Rosenberg from being able to close the NMI facilities would be to appoint an interim trustee, “who will take charge
of the businesses.” November 3, 2008, Email [Doc. No. 75-4] at 13.
Pinel explained in his deposition that, appointing an interim trustee to keep the businesses in operation was “the primary reason”
for ﬁling the involuntary bankruptcy petitions, because “the value
was in the operations, no question about that.” Pinel Dep., Ex. 40
[Doc. No. 85-5], at 137. Brier similarly stated that his goal was “to
get a trustee appointed as soon as possible.” Brier Dep., Ex. 54
[Doc. No. 85-6] at 158. Fox, in her deposition, also stated that she
“understood that the request [for interim trustee] was going to be
made,” that they wanted “to make sure that a trustee was put in
place so that they could marshal the assets” of the closing NMI
businesses.” Fox Dep., Ex. 51 [Doc. No. 85-5] at 218-19.
73
Fox Dep., Ex. 51 [Doc. No. 85-5] at 218.

App. 57
a trustee approved and appointed.”74 Pinel “disagree[d]
with [Brier]’s testimony” on the matter, and asserted
that the client, rather than Pinel, decided not to seek
the appointment of a trustee75 once it became apparent
that there was no value in continuing the operations
and that it would thus be more beneﬁcial to wait for
the involuntary petitions to be granted and for a Chapter 7 trustee to be appointed and to focus on orderly
disposition of the assets.76 Again, such evidence suggests, at most, a negligent and hasty approach to
the involuntary bankruptcy petitions, but it does not
74

Brier Dep., Ex. 54 [Doc. No. 85-6] at 160-62.
Pinel Dep., Ex. 40 [Doc. No. 85-5] at 156.
76
Id. at 137.
Defendants argue that there is no material inconsistency in
this testimony relating to the decisions not to request an interim
trustee, as Fox and Brier, neither of whom is a lawyer, did not
understand the difference between an interim trustee and a regular trustee, Defendants reasonably reconsidered the decision to
seek the emergency relief of an interim trustee, and any inconsistencies in their recollection relate only to the “procedure” of
how to meet the ultimate goal of preserving whatever value NMI
had left. Defs.’ Omnibus Reply in Supp. Summ. J. [Doc. No. 90]
at 10-11. There does appear to be some merit to Defendants’ position; Brier, for example, indicated that he wanted a trustee
appointed “as soon as possible,” not necessarily to continue operating the business, but, as Fox indicated, to “take control of the
marshaling of the assets” and to “provide additional possible restructuring opportunities and provide transparency with regard
to the multiple creditors that were involved.” Brier Dep., Ex. 54
[Doc. No. 85-6] at 158. Yet, Defendants minimize the importance
of these discussions surrounding the appointment of an interim
trustee, which appears to have been a primary motivation for ﬁling the involuntary petitions, and the Court cannot easily brush
aside the confusion in the evidence and the conﬂicting testimony
on this subject at the summary judgment stage.
75

App. 58
evidence a “wanton disregard for the rights of the parties injured.”77
Finally, there is some evidence in the record that
Defendants ﬁled these petitions, not solely in response
to the impending closure of the NMI business and
NMI’s failure to pay its creditors,78 but in order to gain
a tactical advantage in the Bucks County action. One
of the factors listed in Forever Green is “suspicious timing,” and here, the involuntary bankruptcy petitions
were ﬁled a little over two months after the execution
of the confessed judgment against Rosenberg was
stayed in Bucks County,79 and less than two months
after Fox wrote in an email to Brier that he needed to
make sure their attorney in the Bucks County action
was a “street ﬁghter” who needs to “out ﬁle Maurey
[sic] and not sit back and let things just go through
the court systems.”80 The involuntary petition was also
77

Hutchison ex rel. Hutchison v. Luddy, 870 A.2d 766, 770
(Pa. 2005).
78
On October 28, 2008, Brier wrote in an email to Jane Fox
that Maury Rosenberg informed him that “all the Maryland centers were closed” and “that the rest of the centers will be closed in
a matter of months if not sooner.” October 28, 2008 email from
Brier to Jane Fox, Ex. 39 [Doc. No. 85-4].
Defendants contend that it was only after they learned that
Rosenberg intended to close all centers that Robert Pinel, U.S.
Bank’s outside counsel, advised that the best strategy to preserve
NMI’s value was to put it into bankruptcy so that a trustee could
be appointed. Defs.’ Omnibus Reply in Supp. Summ. J. [Doc. No.
90] at 7.
79
The stay occurred on August 29, 2008, and the petitions
were ﬁled on November 7, 2008.
80
Email, Sept. 18, 2008, Ex. 26 [Doc. No. 85-4].

App. 59
ﬁled soon after Defendants told Rosenberg that they
would not accept anything other than a lump sum payment to satisfy his outstanding debt, and the parties
dispute whether Defendants were negotiating a restructuring of the debt in good faith.81 The Court must
“view the underlying facts and all reasonable inferences therefrom in the light most favorable to the
party opposing the motion,”82 and therefore the Court
81

The parties appear to agree on the factual background of
the negotiations surrounding the restructuring of the debt, but
disagree as to whether each parties’ position in the negotiations
was reasonable or made in good faith. NMI asserts that U.S. Bank
“had no interest in negotiating a restructuring of NMI’s debt or
working with NMI to ﬁnd a realistic solution,” Pls.’ Omnibus
Mem. Opp. Summ. J. [Doc. No. 85] at 7, as evidenced by a May
13, 2008, email in which Brier told NMI’s counsel that they
planned on ﬁling a confession of judgment “asap.” Email from
Brier, Ex.19 [Doc. No. 85-3]. According to Plaintiffs, NMI was still
attempting to work out a restructuring agreement at this time,
but U.S. Bank’s demand of $12 million over six months was not
realistic. See July 28, 2008 letter to Brier, Ex. 22 [Doc. No. 85-4]
(“As you know, U.S. Bank’s demand is impossible to meet.”).
In response, Defendants contend that “it is not bad faith for
a creditor to want to be paid,” Defs.’ Omnibus Reply in Supp.
Summ. J. [Doc. No. 90] at 9, and NMI’s proposals were unreasonable, as evidenced by NMI’s “best offer” for restructuring its debt,
which was: reducing monthly payments by 70%; reducing Maury
Rosenberg’s guaranty from $7.6 million to $1.5 million; and allowing NMI to retire the entire $12 million debt for $2.5 million. July
28, 2008 letter to Brier, Ex. 22 [Doc. No. 85-4]. Plaintiffs also contend that U.S. Bank’s requirement of an all cash settlement was
unreasonable, whereas U.S. Bank asserts that this was entirely
appropriate, “[c]onsidering NMI’s nearly perpetual state of default, and the fact that NMI had not met its obligations since
2003.” Defs.’ Omnibus Reply in Supp. Summ. J. [Doc. No. 90]
at 9.
82
Pa. Coal Ass’n v. Babbitt, 63 F.3d 231, 236 (3d Cir. 1995).

App. 60
will not determine, at this stage, whether the Defendants improperly used the involuntary bankruptcy petition as a means to collect a debt.
Nevertheless, this potentially suspicious timing
does not warrant an imposition of punitive damages. It
is important to note the full context—this was also the
same time that Maury Rosenberg had informed Fox
and Brier that he was in the process of closing all of
the NMI centers.83 Upon receipt of this news, Brier informed Fox in an October 28, 2008 email that “an involuntary bankruptcy . . . now seems to be our best
choice,” given Maury Rosenberg’s indication that the
NMI centers will be closed “in a matter of months if not
sooner,” and that Maury Rosenberg “declined” to meet
with a potential inquirer and “said it was too late, that
he was closing all the centers now and that NMI had
nothing to sell.”84 Thus, the Defendants may have “had
an improper motive, albeit not necessarily based on ill
will or malice,”85 and given the context in which these
involuntary bankruptcy petitions were improperly
ﬁled—NMI’s uncontested dire ﬁnancial situation and
that Maury Rosenberg had repeatedly threatened to
83

According to Brier, is the very reason he pursued the involuntary bankruptcy case. Brier Dep., [Doc. No. 90-43] at 240.
84
Email, Ex. A-17 [Doc. No. 90].
85
See, e.g., In re Schloss, 262 B.R. 111, 116-17 (Bankr. M.D.
Fla. 2000) (ﬁnding that “[i]t is clear that . . . the Petitioning Creditors had an improper motive, albeit not necessarily based on ill
will or malice,” and although this evidence may warrant compensatory damages, it “does not warrant the imposition of punitive
damages,” which is not appropriate “unless there is a showing
that [the ﬁling] was done with malice”).

App. 61
abruptly cease operations—and with the absence of
any evidence of maliciousness or ill will, the Court does
not ﬁnd that the policy surrounding § 303(i)(2) would
be aided by awarding punitive damages.86
3. Additional Issues Raised by Various Defendants
Some Defendants raised additional arguments in
support of summary judgment. Although the Court has
granted Defendants’ motions based on Plaintiffs’ failure to meet the elements of 11 U.S.C. § 303(i)(2), the
Court will address these alternative arguments brieﬂy
in the interest of creating a complete record.
i. Ashland
Ashland argues that it can only be held liable for
damages arising after August 24, 2009, the date its request to join the involuntary bankruptcy proceedings
was adjudicated. Ashland did not ﬁle the original, or
ﬁrst amended petitions, but was instead substituted
for DVI Funding in the second amended petitions,
86

The primary evidence as to Defendants’ malicious intentions is Jane Fox’s “out-file” email, in which she asks Brier to
ensure that their attorney in the state court action is a “street
ﬁghter.” Email, Sept. 18, 2008, Ex. 26 [Doc. No. 85-4]. This email
is certainly relevant to the evaluation of Defendants’ conduct in
the time leading up to the ﬁling of the petitions. However, as it
concerns the Bucks County proceedings, not the involuntary petitions, and was sent more than a month before Brier informed Fox
of Pinel’s advice to ﬁle an involuntary bankruptcy petition, it does
not demonstrate the level of egregiousness or maliciousness that
would permit an award of punitive damages. See October 28, 2008
Email from Brier [Doc. No. 90-17] at 2.

App. 62
which were ﬁled on April 10, 2009. On May 13, 2009,
NMI moved to strike the second amended petitions,
arguing that leave of court was required to substitute
Ashland for DVI Funding, and the motion was denied
on August 24, 2009. Thus, according to Ashland, it cannot be liable for damages that occurred prior to August
2009, as it was not formally added as a petitioner until
that date.
The relevant statute holds that “any petitioner
that ﬁled [a] petition in bad faith” is liable for “any
damages proximately caused by such ﬁling.”87 The statute deﬁnes liability for compensatory damages by the
harm caused by the petitions themselves, not by the
individual petitioners. A plain reading of this statute
does not suggest that Ashland’s late entry would preclude it, as a matter of law, from liability for any harm
that the petitions, of which it took part, caused to
NMI.88 Further, there are genuine disputes as to the
degree of Ashland’s involvement once it became formally involved and whether its involvement prolonged
the involuntary bankruptcy proceedings. Thus, had the
Court found it plausible that the involuntary petitions
87

11 U.S.C. § 303(i)(2).
Ashland’s argument in its brief is not entirely clear, but its
position appears to be that its scope of liability should be determined by the date on which it became formally involved as a petitioner; it does not clearly argue that its liability should be
limited based on the date on which the particular amended petition in which it participated was ﬁled. Thus, the Court will not
consider, at this time, whether the amendments to the petitions
should limit Ashland’s liability to those particular petitions in
which it took part.
88

App. 63
caused harm to NMI, there would not have been a basis for portioning the purported harm to NMI as a matter of law, in the manner Ashland presently requests.89
ii. Fox
Fox has argued that she cannot be liable under
§ 303(i) because she was not a “petitioner,” for purposes
of the statute, as she signed the involuntary petitions
on behalf of the DVI companies and not in her personal
capacity. In support, Fox asserts that the only parts of
the involuntary petitions listing her name were the
boxes calling for the “Name & Mailing Address of Individual Signing in Representative Capacity,” and her
name was not listed in the boxes calling for the “Name
of Petitioner.”
The Pennsylvania Bankruptcy Court addressed
this very argument raised by Fox, and held that,
“[u]nder Pennsylvania law, employees of a corporation
are liable for their own misfeasance or negligent conduct, even if they were acting within the scope of their
employment when they engaged in the conduct in
question.”90 As the record contains evidence that Fox
exercised considerable control over the ﬁling of the involuntary bankruptcy petitions on behalf of the DVI
89

A court does have the discretion, however, to “apportion
liability according to petitioners’ relative responsibility or culpability, or to deny an award against some or all petitioners, depending on the totality of the circumstances.” In re Maple-Whitworth,
Inc., 556 F.3d 742, 746 (9th Cir. 2009).
90
In re Nat’l Med. Imaging, LLC, 570 B.R. 147, 159 (Bankr.
E.D. Pa. 2017).

App. 64
Companies, this argument cannot be a basis for granting summary judgment as to Fox.91

91

There is some dispute among federal courts as to whether
agency law is applicable to § 303(i), and this Court finds that
§ 303(i) implicitly incorporates the common law doctrine of
agency liability. See In re McMillan, 614 F. App’x 206, 214 (5th
Cir. 2015) (ﬁnding that § 303(i) may “incorporate[ ] the common
law doctrine of agency holding that principals are liable for the
authorized acts of their agents,” and citing numerous other federal statutes that have done so) (Dennis, J. dissenting).
Plaintiffs cite to the bankruptcy court decision In re McMillan, as support for their position that theories of agency liability
do not apply to § 303(i). 543 B.R. 808 (Bankr. N.D. Tex. 2016). In
that case, the court distinguished § 303(i) from federal statutes
that have been found to implicitly incorporate common law doctrines of agency liability, by vaguely determining that those statutes, such as the Fair Housing Act, are “tort-like,” while the
bankruptcy statute is not. Id. at 816. Additionally, that court determined that Congress did not intend for a debtor to be able to
“circumvent” the rule by allowing third parties to “become ‘petitioners’ by virtue of state law concepts of agency and joint venture. Id. In so deciding, the court emphasized that the provisions
in § 303 provide a “comprehensive remedial scheme that provides
a full range of protections for the debtor,” citing to In re Miles, a
Ninth Circuit case where the court found that § 303(i) “completely
preempts state law tort causes of action for damages predicated
upon the ﬁling of an involuntary petition.” 430 F.3d 1083, 1086
(9th Cir. 2005).
However, the Third Circuit has speciﬁcally found In re Miles
“not . . . persuasive on the preemption issue,” and has held that
“§ 303(i) is not an exclusive remedy for debtors who convert an
involuntary Chapter 7 bankruptcy petition to a voluntary Chapter 11 reorganization.” Rosenberg v. DVI Receivables XVII, LLC,
835 F.3d 414, 421 (3d Cir. 2016) (citation omitted); U.S. Express
Lines Ltd. v. Higgins, 281 F.3d 383, 393 (3d Cir. 2002) (“Despite
the broad scope of remedies available in the Code and the general
exclusivity of the federal courts in bankruptcy, we have held that
a state claim for malicious abuse of process was not preempted.”).

App. 65
iii. DVI Entities
Finally, the DVI entities assert that the claims
against them are barred by collateral estoppel and judicial estoppel. As to collateral estoppel, the DVI entities contend that the present litigation against them is
precluded by the decision in the Florida bankruptcy
case, in which the court determined that the DVI entities lacked standing to ﬁle an involuntary bankruptcy
petition against Maury Rosenberg, because no guaranty was executed by Maury Rosenberg in their favor
and they were thus not “real parties in interest”; instead, they were “nothing more than pass-through entities to facilitate the securitization transactions. No
actual injury can be traced to these entities, which
could potentially be redressed by the bankruptcy estate.”92 However, the question at issue in that case—
whether the DVI entities were parties in interest with
standing to ﬁle the involuntary bankruptcy petitions
under § 303(b)—differs from the issue of their potential liability under § 303(i)(2) in this action. Thus, as
the present issue was not “actually litigated in the
prior action,” the elements of collateral estoppel are
not met.93
Thus, this Court declines to follow the reasoning in In re McMillan, and ﬁnds that common law theories of agency liability are
appropriate in this case.
92
In re Rosenberg, 414 B.R. 826, 842 (Bankr. S.D. Fla. 2009).
93
“[T]he prerequisites for the application of issue preclusion
are satisﬁed when: (1) the issue sought to be precluded [is] the
same as that involved in the prior action, (2) that issue [was] actually litigated; (3) it [was] determined by a ﬁnal and valid judgment; and (4) the determination [was] essential to the prior

App. 66
Nor would judicial estoppel warrant dismissal of
the case as to the DVI entities. Judicial estoppel allows
federal courts to sanction malfeasance by barring a litigant from “asserting a position that is inconsistent
with one he or she previously took before a court or
agency.”94 “The basic principle” of judicial estoppel is
that “absent any good explanation, a party should not
be allowed to gain an advantage by litigation on one
theory, and then seek an inconsistent advantage by
pursuing an incompatible theory.”95 The DVI entities
argue that counsel for Maury Rosenberg (with whom
NMI is in privity) “vigorously argued” in Florida that
Fox and U.S. Bank had no right to ﬁle the petitions for
the DVI entities, who played no real role in ﬁling the
involuntary petition. Speciﬁcally, during the hearing
on Maury Rosenberg’s motion to dismiss the involuntary bankruptcy petitions in the Southern District of
Florida, Rosenberg’s counsel argued that Fox “signed
for DVI Funding, knowing all the time that DVI Funding didn’t own the alleged assets,” that Fox’s authority
came only from U.S. Bank, not the DVI entities, that
U.S. Bank had “no authority to take any action” on behalf of the DVI entities, and that Fox “gerrymandered”
judgment.” Nat’l R.R. Passenger Corp. v. Pa. Public Utility Com’n,
288 F.3d 519, 525 (3d Cir. 2002) (internal quotations and citation
omitted).
94
Montrose Med. Grp. Participating Sav. Plan v. Bulger, 243
F.3d 773, 779 (3d Cir. 2001).
95
Ryan Operations G.P. v. Santiam-Midwest Lumber Co.,
81 F.3d 355, 358 (3d Cir. 1996) (quoting 18 Charles A. Wright,
Arthur R. Miller & Edward H. Cooper, Federal Practice and Procedure § 4477 (1981), at 782).

App. 67
the signature block to make it look like she was a representative of the DVI entities, when in reality, she was
a representative of U.S. Bank.96 The DVI entities contend that these arguments cannot be reconciled with
NMI’s present claims that the DVI entities ﬁled the involuntary petitions in bad faith.
In response, Plaintiffs contend that these arguments were made “before all relevant facts as to Fox’s
authority had been disclosed—namely the power of authority Lyon held to act on behalf of the DVI companies
had not been produced, never came into evidence in the
in the Rosenberg bankruptcy case, and was never considered by the Florida Bankruptcy Court,” and, “[n]ow
that all the relevant facts have been disclosed, NMI
does not dispute that [U.S. Bank] had authority to act
on behalf of the DVI Companies.”97 Judicial estoppel
should only be used where a party’s position is “tantamount to a knowing misrepresentation to or even
fraud on the court,”98 and at this time, Plaintiffs’ explanation for its inconsistent position would preclude
dismissal of its claim against DVI entities based on
judicial estoppel.

96

Transcript of April 20, 2008 Hearing, Ex. A [Doc. No. 80]
at 19-20, 23.
97
Pls.’ Omnibus Mem. in Opp. Summ. J. [Doc. No. 85] at
45-46.
98
Krystal Cadillac-Oldsmobile GMC Truck, Inc. v. GMC, 337
F.3d 314, 324 (3d Cir. 2003).

App. 68
IV. CONCLUSION
For the reasons stated above, the Court will grant
Defendants’ motion for summary judgment. As no
claims remain against Defendants, U.S. Bank’s motion
for default judgment on its counterclaim asserting entitlement to set off its prior judgments against any
amounts found to be due to Plaintiffs in this action will
be dismissed as moot. An appropriate order follows.

App. 69
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
Nos. 19-3057, 19-3058, 19-3059, 19-3254 & 19-3255
In re: NATIONAL MEDICAL IMAGING, LLC;
NATIONAL MEDICAL IMAGING
HOLDING COMPANY, LLC
NATIONAL MEDICAL IMAGING, LLC;
NATIONAL MEDICAL IMAGING
HOLDING COMPANY, LLC,
Appellants in Nos. 19-3057, 19-3058 & 19-3059
v.
U.S. BANK, N.A.; LYON FINANCIAL SERVICES,
INC., d/b/a U.S. Bank Portfolio Services; DVI
RECEIVABLES XIV, LLC; DVI RECEIVABLES XVI,
LLC; DVI RECEIVABLES XVII, LLC; DVI
RECEIVABLES XVIII, LLC; DVI RECEIVABLES
XIX, LLC; DVI FUNDING, LLC; ASHLAND
FUNDING, LLC; JANE FOX
Ashland Funding, LLC,
Appellant in No. 19-3254
U.S. Bank, N.A.; Lyon Financial Services, Inc.;
DVI Receivables XIV, LLC; DVI Receivables
XVI, LLC; DVI Receivables XVII, LLC; DVI
Receivables XVIII, LLC; DVI Receivables XIX, LLC;
DVI Funding, LLC; Jane Fox,
Appellants in No. 19-3255
(E.D. Pa. No. 2-15-mc-00146,
2-15-mc-00147 & 2-16-cv-05044)
-----------------------------------------------------------------------

SUR PETITION FOR REHEARING
(Filed Sep. 22, 2020)

App. 70
Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN, SHWARTZ, KRAUSE, RESTREPO,
BIBAS, PORTER, MATEY, PHIPPS, and ROTH,* Circuit
Judges.
The second petition for rehearing filed by appellants in the above-entitled case having been submitted
to the judges who participated in the decision of this
Court and to all the other available circuit judges of the
circuit in regular active service, and no judge who concurred in the decision having asked for rehearing, and
a majority of the judges of the circuit in regular service
not having voted for rehearing, the petition for rehearing by the panel and the Court en banc, is DENIED.
BY THE COURT
s/ Kent A. Jordan
Circuit Judge
DATE: September 22, 2020
CJG/cc: Steven M. Coren, Esq.
Aris J. Karalis, Esq.
Francis X. Lane, Esq.
Melissa C. Mazur, Esq.
Steven J. Adams, Esq.
Philip D Anker, Esq.
Peter H. Levitt, Esq.
Stacey A. Scrivani, Esq.
Danielle M. Spinelli, Esq.
Amy E. Vulpio, Esq.
David R. Kuney, Esq.

* Judge Roth’s vote is limited to panel rehearing only.

